<html>
<title> - AFGHAN WOMEN AND GIRLS: BUILDING THE FUTURE OF AFGHANISTAN</title>
<body><pre>[Senate Hearing 111-643]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-643

                        AFGHAN WOMEN AND GIRLS: 
                   BUILDING THE FUTURE OF AFGHANISTAN

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                AND THE

                     SUBCOMMITTEE ON INTERNATIONAL 
                     OPERATIONS AND ORGANIZATIONS,
                        HUMAN RIGHTS, DEMOCRACY,
                       AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 23, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
61-655 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

CHRISTOPHER J. DODD, Connecticut     JAMES E. RISCH, Idaho
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
EDWARD E. KAUFMAN, Delaware

                         ------------          

          SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND        
            ORGANIZATIONS, HUMAN RIGHTS, DEMOCRACY,        
                   AND GLOBAL WOMEN'S ISSUES        

              BARBARA BOXER, California, Chairman        

RUSSELL D. FEINGOLD, Wisconsin       ROGER F. WICKER, Mississippi
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
KIRSTEN E. GILLIBRAND, New York

                              (ii)        










                            C O N T E N T S

                              ----------                              
                                                                   Page

Bever, James, USAID Afghanistan-Pakistan Task Force Executive 
  Director, U.S. Agency for International Development, 
  Washington, DC.................................................    11

    Prepared statement...........................................    12


Boxer, Hon. Barbara, U.S. Senator From California................     1


Casey, Hon. Robert P. Jr., U.S. Senator From Pennsylvania........    24


Reid, Rachel, Afghanistan Researcher, Human Rights Watch, Kabu, 
  Afghanistan....................................................    30

    Prepared statement...........................................    32


Samar, Dr. Sima, Chair, Afghanistan Independent Human Rights 
  Commission, Special Rapporteur on the Situation of Human Rights 
  in the Sudan, Kabul, Afghanistan...............................    26
    Prepared statement...........................................    28


Verveer, Ambassador Melanne, Ambassador at Large for Global 
  Women's Issues, Department of State, Washington, DC............     4
    Prepared statement...........................................     7


Wicker, Hon. Roger F., U.S. Senator From Mississippi.............     3

                                 (iii)



 
       AFGHAN WOMEN AND GIRLS: BUILDING THE FUTURE OF AFGHANISTAN

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2010

        U.S. Senate, Subcommittee on Near Eastern and South 
            and Central Asian Affairs and the Subcommittee 
            on International Operations and Organizations, 
            Democracy, Human Rights and Global Women's 
            Issues, Committee on Foreign Relations
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3 p.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
presiding.
    Present: Senators Boxer, Casey, Shaheen, Kaufman, and 
Wicker.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good afternoon. Today, the Senate Foreign 
Relations Subcommittee on International Operations and 
Organizations, Democracy, Human Rights and Global Women's 
Issues, and the Subcommittee on Near Eastern and South and 
Central Asian Affairs meet to examine the status of women and 
girls in Afghanistan.
    I'm very pleased that Senator Wicker is here. I hope that 
shortly we will be joined by Senator Casey, who is going to 
chair, as I understand it, the second panel. And I think that 
Senator Risch will be coming, and I'm very pleased about that.
    I want to express a very warm welcome to our distinguished 
witnesses, some of whom came a very long way, and we're very 
honored.
    It goes without saying that the women of Afghanistan have 
borne the brunt of the war, and of the violence and the tragedy 
that has plagued Afghanistan for decades.
    Under the Taliban government, women were shut out of 
virtually all aspects of public life, largely denied the 
opportunity to hold a job or seek medical care, and prohibited 
from receiving an education.
    But over the past few years, Afghan women have made 
important progress. Today, millions of Afghan girls are 
enrolled in school, Afghan women are serving in the Parliament, 
and many Afghan women business leaders are contributing 
economically to the future of their country.
    But this progress is at risk as Afghan President Karzai 
moves to reintegrate elements of the Taliban into local and 
national politics and society through a process called 
reconciliation.
    It is critical that Afghan women play a meaningful role in 
any reconciliation process so that women's rights and freedoms 
are guaranteed.
    As aptly stated in the administration's recently released 
Action Plan for Afghan Women and Girls, ``women's empowerment 
is inextricably linked to security, economic opportunity, 
effective governance, and social development. It is a simple 
fact that no country can prosper if half its citizens are left 
behind.''
    I'm very pleased that that statement is in the Action Plan 
for Women and Girls. And I am also very pleased that just a few 
minutes ago we received a revised version of the Afghanistan 
and Pakistan Regional Stabilization Strategy. After I sent a 
letter to the administration, they went back and they 
incorporated women in every component of this plan, and I 
cannot be happier today. And I want to thank you, Ambassador, 
for that, and we'll get into it later.
    Our first witness today is the Ambassador at Large for 
Global Women's Issues, Melanne Verveer. As many of you know, 
Ambassador Verveer is a tireless champion for women around the 
globe. For more than 16 years in both governmental and 
nongovernmental roles, she has traveled to dozens of countries, 
first as an Assistant to President Clinton and Chief of Staff 
to First Lady Hillary Clinton, where she worked to make women's 
issues an integral part of our foreign policy and helped create 
the President's Interagency Council on Women.
    Before becoming the Ambassador for Global Women's Issues, 
Ambassador Verveer served as the cofounder, chairwoman, and 
cochief executive of Vital Voices, a nongovernmental 
organization that identifies, trains, and empowers emerging 
women leaders and social entrepreneurs around the globe. I know 
Ambassador Verveer cares deeply about Afghan women, having 
traveled to Afghanistan as one of her first official acts after 
becoming ambassador last year. In particular, she played a key 
role in helping to bring Afghan women to the table at the 
recent London conference on Afghanistan.
    We will then hear from Mr. James Bever, the Executive 
Director of the Afghanistan-Pakistan Task Force at the U.S. 
Agency for International Development. Previously, Mr. Bever 
served as the USAID Mission Director to the West Bank and Gaza 
Strip from 2004 to 2006. From 2003 to 2004, he was the USAID 
Mission Director to Afghanistan.
    Thank you both for your service to our country. And we look 
forward to your testimony.
    Before I turn first to Senator Wicker and then to Senator 
Casey for any comments they might have, I would like to welcome 
our second panel, which Senator Casey will chair: Sima Samar, 
whom I have known for a long time, and Rachel Reid, who have 
traveled all the way from Afghanistan to be with us today. They 
had a few bumps getting on the plane, but we made sure they got 
on that plane. That is, that Sima got on that plane.
    So, I think what I would like to do is ask Senator Wicker 
if he has some opening statements, and then I'll turn to 
Senator Casey.

          OPENING STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Madam Chair. I want to thank you 
for the opportunity to highlight the importance of continued 
efforts toward stability as we move forward in Afghanistan. I 
would also like to extend my gratitude to Chairman Casey and 
Senator Risch for their willingness to make this a joint 
hearing with the Near Eastern and South Central Asian Affairs 
Subcommittee.
    A critical part of bringing stability to Afghanistan is 
securing the liberties of all citizens, especially women and 
girls. The advancement of women's rights is undeniably linked 
to security, economic opportunity, effective governance, and 
social development in Afghanistan.
    I thank both panels of witnesses for giving their time 
today to appear before the committee on this topic.
    During a congressional delegation trip to Afghanistan and 
Pakistan last month, I was able to see firsthand our military's 
ongoing efforts to rid Afghanistan of the Taliban and al-Qaeda 
extremists. I returned home hopeful that our men and women in 
uniform will succeed and confident of their capability of 
successfully completing this critical mission, despite the 
tremendous challenges that they must still overcome.
    I was encouraged to see the prominent role of USAID and the 
State Department in the counterinsurgency plan as they begin 
the building phase, after our troops have cleared an area of 
Taliban. I'm interested in hearing more about what specifically 
USAID and State are doing to help women in these areas.
    The United States alone cannot shoulder the burden of 
increased civilian engagement in Afghanistan. Cooperation with 
international partners is critical. I appreciated seeing that 
the U.N. is taking a greater role in Afghanistan and that other 
international partners are taking on more responsibility as 
well.
    I recently returned from a parliamentary assembly of OSCE 
nations and am pleased to report that some 37 of our OSCE 
partner nations have troops on the ground involved in the fight 
in Afghanistan and are working shoulder to shoulder with the 
United States in an ISAF capacity. I'm eager to see how we're 
coordinating with these partners in our effort to help women 
and girls in Afghanistan.
    As we continue our efforts in Afghanistan and focus on the 
issue of security, we must not lose sight of the role women 
play in the country's stabilization.
    As I've already said, I believe women's rights are 
inextricably linked to the broader issues of security and 
economic development. Women and girls suffered horribly under 
the rule of the Taliban, both in Pakistan and Afghanistan. 
Although improvements have been made in areas such as access to 
education and women's health, progress has lagged in other 
areas. Some even claim that circumstances for women in 
Afghanistan have actually deteriorated.
    So I look forward to hearing what our distinguished 
panelists have to say about this, the current situation for 
women and girls specifically. I would like to hear what steps 
are being taken to protect women's rights, as former Taliban 
are reintegrated into the Afghan society.
    There are great challenges that remain and problems that 
need to be addressed as we continue to work to transform 
Afghanistan into a more stable country. I look forward to a 
comprehensive hearing today. Thank you.
    Senator Boxer. Thank you so much, Senator. I think we have 
the same concerns.
    Senator Casey.
    Senator Casey. Thank you very much. I want to, first of 
all, thank Senator Boxer for gathering us together today as 
well as our Ranking Member Senator Wicker and Senator Shaheen, 
who is with us. I will have a longer statement before the 
second panel. So, I'll save the time for them.
    But we're grateful for those who are here, especially our 
witnesses, Mr. Bever as well as Ambassador Verveer. I 
appreciate your public service, Madam Ambassador, but also I 
also appreciate your Pennsylvania roots.
    But at this time, when we're engaged in such an important 
challenge in Afghanistan and Pakistan, we especially need to 
pay even closer attention to the issues that impact women and 
girls. And, as a father of four daughters, I can't even begin 
to imagine what some of these families have had to live through 
all these years, year after year of the kind of abuse and 
suffering, really, that they've have to endure. But we hope 
that this hearing sheds some much-needed light on that horrific 
challenge.
    So, we're grateful for your presence here, and we look 
forward to your testimony.
    Senator Boxer. Senator, thank you.
    Senator Shaheen.
    OK. So, we're going to turn to our panel, and we hope you 
can keep your remarks to about 5 minutes so that we have time 
for lots of questions before we hear from our second panel. So, 
let's start the clock, and I'm going to first call on 
Ambassador Verveer. Welcome.

 STATEMENT OF AMBASSADOR MELANNE VERVEER, AMBASSADOR AT LARGE 
 FOR GLOBAL WOMEN'S ISSUES, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Verveer. Thank you very much, Senator Boxer, and 
thanks to all of you for your commitment, dedication, and your 
words this afternoon. They are profoundly moving and, I must 
say, keep us going. So, thank you so much for that.
    I am honored to appear before you today to describe why 
women and girls are among the most powerful--although still 
largely underutilized--agents for change to advance stability, 
security, and development in Afghanistan. I request that my 
submitted written testimony be entered into the record, and I 
will briefly summarize from it.
    Senator Boxer. Without objection.
    Ambassador Verveer. Our civilian assistance strategy in 
Afghanistan incorporates the values of human rights, good 
governance, and the rule of law. Women's empowerment in 
Afghanistan and their full and equal participation in their 
society are fundamental prerequisites for achieving this 
strategy.
    The era of brutal repression by the Taliban, that you have 
all noted, has passed, yet on every measure of development and 
in every sphere, women in Afghanistan continue to suffer solely 
because they were born female.
    In the political realm, women made immediate gains after 
the Taliban era. Many entered political life at the most senior 
levels. However, the deteriorating security conditions have 
made the prospect of their participation in public life more 
difficult. Their political gains today appear fragile and 
require urgent and sustained attention from all of us.
    The legacy of the Taliban continues to limit women's 
literacy levels, their ability to participate in the 
professional workforce, and the education and health care 
infrastructure and resources available to them. Pervasive 
discrimination remains at every level of society, and Afghan 
women suffer high levels domestic abuse and violence in many 
forms. This violence cannot be explained away as cultural or 
private; it is criminal and must be addressed and recognized as 
such.
    In the face of so many deeply entrenched problems and 
barriers to progress, it would be tempting to see Afghan women 
as little more than the victims of the enormity of their 
circumstances, having nothing to do with waging a successful 
counterinsurgency campaign. Nothing could be further from the 
truth.
    As you noted, Senator Boxer, I traveled to Afghanistan just 
before the Presidential elections, and I went to reaffirm our 
country's commitment to Afghan women and to hear from them how 
they were faring. To visit Afghanistan is to become aware of 
just how many capable Afghan women leaders there are who risk 
their lives every day in order to work alongside the men to 
create a better future for their country. Women such as Arzo 
Qanih, an activist in the area of education, who presented 
recommendations on behalf of all Afghan women at the 
international conference on Afghanistan that recently took 
place in London. She spoke passionately about the role that 
women must play in Afghanistan's security, governance, and 
development.
    My written testimony talks about many Afghan women who are 
working for progress in all fields from the economy to 
government, but I would like to add that it is particularly 
meaningful today to have Dr. Sima Samar here to testify. After 
the overthrow of the Taliban, she made several trips to 
Washington in 2002 as Minister for Women's Affairs in that very 
young government at the time. Although the women had suffered 
unimaginable brutality under the Taliban, it was clear, even 
then, that if Afghanistan were to chart a successful new 
course, its women had to be part of the process. Sima was in 
many ways their voice to the world, and she rallied many of us, 
myself included, to address the urgent needs that women in her 
country confronted.
    Many other women were helping to create a better life for 
the Afghan people and continue to do so to this day in ways 
large and small. They are the teachers, the members of the 
police force, the midwives, the farmers, the provincial council 
members.
    Clearly, Afghan women are agents of democracy and change, 
and yet their potential is largely untapped.
    That pace of positive change can be accelerated if we work 
to remove the barriers that prevent them from working for the 
good of their country. It is a simple fact, as you said, 
Senator Boxer, that no country can get ahead if half its 
population is left behind. This is true the world over, and it 
is no less true in Afghanistan.
    On January 28, 2010, when leaders from around the world 
gathered in London to discuss Afghanistan's future, Secretary 
Clinton underscored the importance of women in Afghanistan's 
development and unveiled the Women's Action Plan, which is 
incorporated in our U.S. Afghanistan and Pakistan Regional 
Stabilization Strategy, which all of you had distributed to you 
this afternoon.
    The strategy recognizes women as agents of change and 
underscores their importance to our civilian stabilization plan 
and our efforts to strengthen Afghan communities' capacity to 
withstand the threat posed by extremism. It establishes women's 
empowerment as critical to unleashing the full economic 
potential of the Afghan people.
    To combat barriers to women's political empowerment, the 
United States has launched a broad grassroots effort to train 
women at the local level and to build their capacity to take on 
leadership roles. We are also working with women and men in law 
enforcement and in the judicial system, to diminish the 
impunity that allows threats, intimidation, and violence to 
continue to keep them out of public life.
    Freeing women to participate in public life also frees them 
to participate in the economic activity of their nation. Jobs 
creation is among our most urgent goals, and agricultural 
development in Afghanistan is a top United States priority.
    The key to increasing agricultural productivity is to 
increase the skilled human capital, and a very efficient way to 
accomplish that is by training women. To further build 
Afghanistan's skilled workforce, as well as to extend the many 
other benefits of education, the United States has promoted 
programs that rebuild the education infrastructure and that 
have enabled more girls to go to school and women to become 
literate.
    We are also working to rebuild the health care services and 
particularly to stem the incredibly unfortunate statistic that 
Afghanistan is one of the worst countries in the world when it 
comes to maternal mortality.
    The United States counterinsurgency strategy in Afghanistan 
addresses issues of security, economic and social development, 
good governance, and rule of law. The future security, 
stability, and development of that country depends in large 
part on the degree to which women will have an active role in 
rebuilding their society and a voice in their country's 
political process. To reach that level of participation, they 
need to be included in all levels of discussion in the civil 
service and have an active role in any discussions that have to 
do with the future of their country and the peace process. The 
principle is formulated in U.N. Security Council Resolution 
1325, which sets out----
    Senator Boxer. Can I ask that you wrap up because----
    Ambassador Verveer [continuing]. Women's role in 
international peace and security. You have mentioned the 
reintegration process and potentially a reconciliation process. 
We firmly believe that women need to whole-heartedly 
participate in that process because if peace is to endure, 
women will need to have a voice in the decisionmaking about the 
future of their country. Their rights must not be endangered or 
diminished in efforts to reconcile competing factions.
    [The prepared statement of Ambassador Verveer follows:]


            Prepared Statement of Ambassador Melanne Verveer

    I am honored to appear before you today to describe why women and 
girls represent one of the most powerful--but underused--forces that we 
have to advance security, stability, and development in Afghanistan. 
I'd also like to recognize Senators Kerry, Lugar, Boxer, and Casey for 
the leadership they have shown on issues affecting Afghan women and for 
recognizing the crucial role that women hold in advancing progress in 
that country. In some significant ways, this hearing builds on the 
October 1, 2009, Senate Committee on Foreign Relations hearing on the 
global costs and consequences of violence against women. I commend the 
senators here today for their recognition of the enormous costs exacted 
by violence against women, no matter where it occurs in the world, and 
their recognition of the enormous development gains that could be made 
if we free women from its ever-present threat and work to enable them 
to fulfill their potential.
    In his State of the Union Address, President Obama declared that 
the U.S. government's policies in Afghanistan reflect our national 
values, including support for universally recognized human rights. Our 
civilian assistance strategy in Afghanistan incorporates the values of 
inclusive human rights, good governance, and rule of law. Women's 
empowerment in Afghanistan and their full and equal participation in 
their society are fundamental prerequisites for achieving this 
strategy. Secretary Clinton recognized and underscored this in her 
remarks in London on January 28 at the International Conference on 
Afghanistan, when she emphasized that women need to be involved at 
every step of the way in the process of rebuilding Afghan civil 
society. The participation of Afghan women is critical for sustainable 
development, better governance, and peace--in short, they are essential 
to securing a better future for Afghanistan.
    The era of brutal repression by the Taliban has passed, yet on 
every measure of development and in every sphere, women in Afghanistan 
continue to suffer solely because they were born female.
    In the political realm, women made immediate gains after the 
Taliban era. Between 2001 and 2005, many women entered political life 
at the most senior levels: there were three female ministers in 
national government, and there was a substantial increase in women 
striving to assert their rights and seeking legal support. However, 
since that time, deteriorating security conditions have made the 
prospect of women's participation in public life more difficult. In 
2008 alone, at least ten women in public positions were assassinated. 
Women have suffered abuse by the police forces responsible for 
protecting them. They lack significant representation in the justice 
system, and the government denied women judges the right to have their 
own independent professional association. In the recent presidential 
election, women's political participation was hampered by fear and 
intimidation by the Taliban, as well as lack of adequate provisions for 
women at polling stations. Women politicians are often threatened and 
prevented from engaging in political life. Qualified and experienced 
women are rarely included in government decision-making or political 
negotiations. Their political gains today appear fragile and require 
urgent and sustained attention from the international community.
    Under the Taliban, fewer than 900,000 boys--and no girls--were 
enrolled in Afghanistan's schools. Today, more than 6.2 million 
students are enrolled in Afghanistan's schools, and 35 percent of them 
are girls. Nonetheless, overcoming years of exclusion from education is 
a long process. Only an estimated 21 percent of Afghan women are 
literate, and the female illiteracy rate is as high as 90 percent in 
rural areas. Although there is broad popular support for girls' 
schooling, extremists still try to impose their brutal agenda by force, 
by burning down schools, gassing schoolgirls, or throwing acid in the 
faces of female students.
    In health as well as in education, the Taliban excluded women from 
all services. The legacy of those restrictions has left Afghanistan 
with the second-highest maternal mortality rate in the world, and other 
health indicators for women, particularly in the area of reproductive 
health, are similarly low.
    Perhaps the greatest remaining impediment to women's full civic 
participation is violence against women and girls, which remains 
endemic in Afghan society. In addition to facing pervasive 
discrimination at every level of society, Afghan women suffer domestic 
abuse, rape, forced marriages, forced prostitution, kidnappings, so-
called ``honor'' killings, and cultural practices that use daughters as 
payment to settle disputes and that condone self-immolation. Crimes go 
unpunished because of anemic rule of law and weak institutions of 
justice. Approximately 80 percent of crimes and disputes are settled 
through traditional justice mechanisms. Absent the types of reform the 
USG is promoting, these institutions are often flagrantly 
discriminatory toward women. Violence against women and girls in 
Afghanistan cannot be explained away as cultural or private; it is 
criminal and must be addressed as such.
    In the face of so many deeply entrenched problems and barriers to 
progress, it would be tempting to see Afghan women as little more than 
the victims of the enormity of their circumstances. Nothing could be 
further from the truth. I traveled to Afghanistan just before the 2009 
presidential elections there to reaffirm President Obama's and 
Secretary Clinton's commitment to Afghan women and girls and to hear 
from them how they were faring.
    To visit Afghanistan is to become aware of just how many capable 
Afghan women leaders risk their lives every day in order to work 
alongside men to create a better future for their country. Some of 
these are prominent women leaders who are doing crucial work, such as 
Habiba Sarabi, governor of Bamyan province; members of Parliament who 
are advocating for women's rights, such as Fawzia Koofi or Shukria 
Barakzai; or women in the civil service, such as Rahela Sidiqi, who 
created the Afghan Women's Leadership Caucus Group, which works to 
increase the number of women in executive positions in the government. 
Some are prominent businesswomen, such as Amir Taj Serat, who owns a 
soccer ball manufacturing business called Green Way that employs over 
250 women; or Massooma Habibi, who is helping build Afghanistan's 
electricity and power sector and is supporting U.S. military needs 
through the company she founded and continues to run despite 
harassment, discrimination, and threats to herself and her family. Some 
are leading educators who integrate community education into the 
framework of Islamic values, such as Sakena Yacoobi, founder of the 
Afghan Institute of Learning; or legal expert and former State Minister 
for Women's Affairs, Professor Mahbooba Huquqmal. And some are leaders 
within civil society, such as Dr. Sima Samar, Chair of the Afghanistan 
Independent Human Rights Commission, with whom I am proud to testify 
today; or Andeisha Farid, Executive Director and Board Chair of the 
Afghan Child Education and Care Organization, which operates four 
orphanages in Afghanistan, and two for orphaned Afghan refugees in 
Pakistan, overseeing the care of over 300 orphans; or Arzo Qanih, an 
activist in the area of education, who presented recommendations on 
behalf of Afghan women at the recent London Conference, and who spoke 
passionately about the role that women must play in Afghanistan's 
security, governance, and development.
    Many other women are helping to create a better life for the Afghan 
people in other ways, large and small: they are teachers, members of 
the police force, midwives, farmers, and provincial council members. 
Clearly, Afghan women are agents of democracy and change, and yet their 
potential is largely untapped. That pace of positive change can be 
accelerated if we work to remove the barriers that prevent them from 
working for the good of their country.
    It is a simple fact that no country can get ahead if half its 
population is left behind. We know from an accumulating body of studies 
and research from governments, multilateral organizations, 
corporations, and think tanks that investing in women is the single 
most effective development strategy that we have for poverty 
alleviation, economic growth, and a country's general prosperity. This 
is true the world over; it is no less true in Afghanistan.On January 
28, leaders from around the world gathered in London to discuss 
Afghanistan's future. Secretary Clinton underscored the importance of 
women in Afghanistan's development and unveiled the Women's Action 
Plan, which is incorporated into our U.S. Afghanistan and Pakistan 
Regional Stabilization Strategy. As Secretary Clinton said, ``the plan 
includes initiatives focused on women's security, women's leadership in 
the public and private sector; women's access to judicial institutions, 
education, and health services; and women's ability to take advantage 
of economic opportunities, especially in the agricultural sector. This 
is a comprehensive, forward-looking agenda.''
    The Afghanistan and Pakistan Regional Stabilization Strategy 
recognizes women as agents of change and underscores their importance 
to our civilian stabilization plan and our efforts to strengthen Afghan 
communities' capacity to withstand the threat posed by extremism. It 
establishes women's empowerment as critical to unleashing the full 
economic potential of the Afghan people.
    To combat barriers to women's political empowerment, the United 
States has launched a broad grassroots effort to train women at local 
levels and to build their capacity to take on leadership roles. We also 
recognize that increasing women's political participation requires 
working with both women and men in law enforcement and in the judicial 
system, to diminish the impunity that allows the threats, intimidation 
and violence to continue that keep women out of public life.
    The U.S. government has been supporting local civil society 
organizations in providing civic education through a coordinated 
approach of training, capacity building, and support for media 
programs. Department of State programs within the Bureau for 
International Narcotics and Law Enforcement Affairs (INL) have trained 
525 female police officers and more than 600 women working in the 
justice sector. They've supported the creation of police Family 
Response Units that are staffed primarily by female police officers and 
that offer a safe place for women, children, and families to report 
crime and seek dispute mediation. INL has funded workshops for more 
than 550 male and female police officers on domestic violence. We are 
also supporting political development programs by providing training to 
35 female Parliamentarians and their 165 staff, and have assisted the 
Ministry of Women's Affairs in strategic planning, communications, and 
institution building.
    Our efforts focus not only on building the capacity of women and 
mitigating the security issues that impede their political progress, 
but also on securing prominent allies within Afghan culture and 
society. Through the Bureau of Democracy, Human Rights, and Labor 
(DRL), the Department of State currently supports four programs, 
totaling more than USD 2 million, that promote women's rights at the 
local level by engaging religious leaders and local officials to engage 
women in the electoral process and to develop women's participation in 
local governance. In one such project, more than 800 religious leaders, 
government officials, media representatives, and civil society members 
received training on human rights concepts, including the rights of 
women, within the context of Islam. One of the mullahs who participated 
in the training now has a regular one-hour program on Sharq Television, 
in which he has spoken about the rights of women, children, and 
families.
    The United States prioritizes these programs for women's political 
empowerment not only because women have the right to participate in the 
processes and decisions that affect their lives, and not only because 
their country--and the world--needs to hear their perspectives and 
experiences, but also because the scale of security, economic, 
healthcare, and educational reforms that the country must tackle cannot 
happen without the commitment and involvement of women and men to good 
governance and rule of law.
    Freeing women to participate in public life also frees them to 
participate in the economic activity of their nation. Job creation is 
among our most urgent goals, and agricultural development in 
Afghanistan is a top U.S. priority. Eighty percent of the people in 
Afghanistan earn their income from agriculture, yet only 50 percent of 
the arable land is currently under cultivation. The key to increasing 
land yield and productivity is to increase the skilled human capital 
and boost land productivity--and an efficient way to accomplish that is 
by training women to participate in the workforce.
    The U.S. Agency for International Development (USAID) has pursued 
this kind of economic development in a program involving 52,500 women 
working as goat herders--teaching them about the high value of cashmere 
and the proper methods to harvest and market this commodity.
    Other USAID and U.S. government programs partner with the Afghan 
government to expand women's role in animal husbandry and commercial 
agriculture. For example, USAID has partnered with the provincial 
Ministry of Women's Affairs and the Ministry of Agriculture Irrigation 
and Livestock to train 180 women in poultry breeding and management, 
and provided them with the birds they need to start their small 
enterprises. A similar U.S.-supported program called the Alternative 
Development Program Southwest began in 2008 and provides training and 
support in raising poultry, along with the creation of greenhouses, for 
hundreds of female farmers, many of whom are widowed and supporting 
families. Thanks to these types of initiatives, chicken egg production 
is now a sustainable enterprise for a number of Afghan women. Programs 
like these are having a positive impact. As one Afghan said ``It is 
unbelievable how our family life changed from misery to prosperity.''
    During my trip to Afghanistan this past summer, U.S. Ambassador 
Eikenberry and I announced a new USD 26.3 million fund for small 
flexible rapid-response grants to empower Afghan women-led NGOs at the 
local level and to build their skills. These small loans are already 
supporting the work of Afghan-led women NGOs, including those working 
in the following areas: computer and English skills, handicraft 
training, radio programming for women, and the provision of dairy cows 
for women's agricultural initiatives. A portion of the grants will also 
promote groups that seek women's political empowerment. Future grants 
will help these organizations grow and manage their own financing. In 
these ways, Afghan women are helping each other improve their own lives 
and those of their families.
    Beyond agricultural assistance, we're working to provide Afghan 
women with the tools they need to begin a microbusiness or to take an 
existing business to the next level of development. As of September, 
2009, USAID had provided over 108,000 microfinance loans to Afghan 
women via its Agriculture, Rural Investment, and Enterprise 
Strengthening Program, and the organization has provided skills 
training to 4,300 female business owners over the past two years. Their 
cash-for-work programs have reached over 21,000 women, providing them 
with both income and business development assistance. The U.S.-Afghan 
Women's Council is also active in this area, and is working with 
private industry to promote women's economic skills and 
entrepreneurship. They have, for example, set up a partnership with the 
hand-knotted carpet industry to provide training, literacy skills, and 
access to health care for Afghan women and their families.
    To further build Afghanistan's skilled workforce, as well as to 
extend the many other benefits of education, the United States has 
promoted programs that rebuild the education infrastructure for women. 
Through two major partnerships between USAID and the Afghan government, 
we are taking on the enormous obstacles that remain to women's 
educational equality. The Partnership for Community Education in 
Afghanistan establishes primary school classes in previously remote 
areas and integrates them into the public system. The project also 
supports adult literacy and trains teachers. To date, 2,446 primary 
grade classes have been established; 60 percent of participants are 
female. The Afghanistan Learning for Community Empowerment Program 
provides literacy and productive skills training to young people and 
adults and helps the newly-literate translate their skills into jobs. 
More than 50 percent of their learning centers are for women.
    The United States has also worked to rebuild Afghanistan's 
healthcare services. INL funds the only three residential drug 
treatment centers for women in the country, in Kabul, Herat, and Balkh. 
Three new centers will open in 2010. With USG assistance, access to 
health services has risen dramatically since 2001. The number of 
midwives available to assist with deliveries has quadrupled; the number 
of health facilities with women health workers has more than doubled. 
There has been a 26 percent increase in the total number of antenatal 
visits, and a 30 percent increase in the number of women delivering 
with the assistance of a skilled midwife.
    The U.S. counterinsurgency strategy in Afghanistan addresses issues 
of security, economic development, social development, good governance, 
and rule of law. The future security, stability, and development of 
Afghanistan depend in large part on the degree to which women have an 
active role in rebuilding its civil society and a voice in their 
nation's political process. To reach that level of participation, women 
need to be included in the political process at all levels, including 
in greater numbers in civil service positions, and they must have an 
active role in the peace process. This principle is formulated in UN 
Security Council Resolution 1325, which sets out women's role in 
international peace and security. Women's inclusion is critical for 
negotiations on lasting peace worldwide, but perhaps nowhere is this 
more critical than in Afghanistan. Their voices must be heard.
    As reintegration efforts move forward, the United States is 
committed to ensuring that Afghan women's rights will not be 
sacrificed. At the London Conference, Secretary Clinton made clear that 
reintegration of former Taliban can only take place if they renounce 
violence, renounce al-Qaida, and accept all the tenets of the Afghan 
constitution, including its commitment to protect women from violence 
and oppression. Afghan women want a process that promotes peace in 
their country. They must be part of that process. Secretary Clinton 
introduced the Afghan women who attended the London Conference and 
honored them by saying, ``They are among the women who have been 
working in Afghanistan for the last years on behalf of expanding 
opportunities for women and protecting human rights and women's rights. 
I've had a chance to work in the past with some of the Afghan women who 
were here for the conference today, and they are very much committed to 
their country's future, but they're also very committed to making sure 
that women in Afghanistan play their rightful role in that country's 
future.''
    If a peace process is to endure, women need to have a voice in the 
decision-making about the future of their country. Their rights must 
not be endangered or diminished in efforts to reconcile competing 
factions. There can be no progress, in Afghanistan or in any other part 
of the world, without women's progress.
    Senator Boxer. Director Bever.

STATEMENT OF JAMES BEVER, USAID AFGHANISTAN-PAKISTAN TASK FORCE 
EXECUTIVE DIRECTOR, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Mr. Bever. Thank you very much, Chairman--Chairwoman Boxer, 
Chairman Casey. Thank you, Member Wicker, Senator Shaheen. 
Thank you very much for the invitation for USAID to testify 
today. I ask that my full written statement be submitted for 
the hearing record.
    Senator Boxer. Without objection.
    Mr. Bever. Thank you. As I start, I would like to recognize 
three of our American AID colleagues who are in the audience 
with me. If they would just stand for a moment.
    Ms. Goronka Heneger from the State of Georgia. Goronka goes 
back to Afghanistan this evening. She has just come back for a 
quick visit.
    Ms. Shannon Darcy. Shannon, from the State of 
Massachusetts, is one of our health experts.
    And Ms. Allison Salyer from the State of New York who is 
our gender expert back here in Washington, but helps us in the 
field.
    I'd just like to start by saying AID is highly committed 
and passionate about providing assistance for development in 
the world, but especially for the lives of women. We place a 
premium on the advancement of women, to empower them and to 
provide the legal protection for them as well as equal 
partners. We know that development change can happen in 
Afghanistan only if women are central catalysts to it.
    Senators, I want to personally and professionally thank you 
for the support you have given to us over the years with the 
American People's Assistance Program. For the benefit of women 
in Afghanistan, we have programmed over $500 million, thanks to 
your support since 2004, when I was the AID Director there.
    I want to just mention a couple of other things here before 
we get into a discussion, if I could. We have two new programs. 
One is the Initiative to Promote Afghanistan Civil Society, and 
another is an Ambassador's Small Grants Program. The latter one 
in particular, which is focused on women's grants--I look to 
Chairman Sima Samar to help us when we get back to post with 
her thoughts and counsel on that. We're very excited those new 
programs.
    I also want to give you a very important thought that comes 
from us on the AID side, that we are dependent on the elevation 
of women to realize change in Afghanistan. Only by the full 
integration of women into the polity and the economy of the 
country can long-term change in Afghanistan really be 
fulfilled.
    And I'll just give you two quick vignettes to summarize. 
When we were rebuilding the American road from Kabul to 
Kandahar, I met with the Governor of Zabul, who was later 
assassinated. He had a lunch at that time. It was in late 2003. 
And after the lunch with tribal leaders, one of the tribal 
leaders came up to me and pulled out my arm and pointed here 
and said, ``Remember one thing. You Americans have all the 
watches. We Taliban''--and he pointed to himself--``we have all 
the time.'' And that was a point for me of an epiphany, if you 
will, because I could have retired at that moment, and it came 
on me like a flood how important the role of development is and 
the international commitment to the Afghan people because it's 
in our interest as well.
    And the second little vignette I will tell you has to do 
with a very famous woman in Afghanistan, two-star Major General 
Sadik. Dr. Sahel Sadik was the Surgeon General for the Afghan 
National Police. She held the Taliban off herself with her own 
surgical instruments when they tried to break her clinic door 
down. She later became the head--the first Health Minister. I 
went out with her, just before I left the country in the summer 
of 2004, to a small village north of Kabul in what's called the 
Shamali Plains, on the way to the northern valleys.
    And we were dedicating a health clinic, and at the end of 
the dedication, the shura of men from the village came over to 
talk with us. And she liked to tease them. She said, ``Well, 
what did you think of this?'' And they said, ``Well, this is 
great, but now we want to help build a school.'' And they 
pointed to all the children under the trees in the distance. 
And there were little boys and little girls there under a 
UNICEF sort of make-shift tent. And she said--she kind of, 
again, liked to tease them--and she said, ``Well, respected 
elders of the village, you know we're a poor country. We'll 
only be able to build a school--we can only afford a school for 
the boys.''
    And the men looked at each other and talked with each 
other, and at that moment the sky opened up above us. A shaft 
of sunlight came down on us and on that little shura of male 
leaders from the village. And they turned to Dr. Sadik and to 
me, and they said, ``Dr. Sadik, with all respect, God does not 
discriminate on any of us as to who receives the benefit of 
sunlight. Why should we discriminate--we who serve God--
discriminate as to who receives the benefit of education? We 
want girls in this school.'' And that was one of my lasting 
motivations when I left Afghanistan. It's why I've come back to 
work on this program, because the motivation comes from within 
them.
    Thank you very much for allowing me to comment.
    [The prepared statement of Mr. Bever follows:]


                    Prepared Statement of James Bever

                              introduction
    Chairmen Boxer and Casey, Ranking Members Wicker and Risch and 
distinguished Members of the subcommittees, thank you for the 
invitation to testify before your subcommittee on this vitally 
important topic. I look forward to outlining the United States Agency 
for International Development's (USAID) efforts in Afghanistan to 
provide assistance to women and girls throughout the country. My oral 
remarks will stay within the requested three minute time frame, but I 
ask that my full written statement be submitted for the hearing record.
    We know from an accumulating body of studies authored by 
representatives of investment banks, foundations, think tanks, and 
other major organizations that investing in women is the single most 
efficient international development strategy available. These studies 
indicate that women reinvest up to 90 percent of their earnings in 
their families and communities, which is twice the rate of men. The 
status of women is a bellwether for the viability of a nation.
    USAID is committed to providing assistance for development that 
improves the lives of women, men, and children around the world. USAID 
has a special interest in the advancement of women worldwide and is 
working to improve women's equality and empowerment. Not only because 
it is just, but because it is necessary for successful development.
    In my written statement, I would like to briefly comment on USAID's 
actions to provide assistance to women and girls in Afghanistan; the 
progress that has been made; the challenges that remain; and, our 
thoughts on moving forward to help this sector of Afghan society.
                            usaid engagement
    In Afghanistan and throughout the world, USAID policy requires the 
incorporation of gender considerations into all of our project designs. 
The mission-wide gender team ensures effective integration of gender 
policies throughout all programs. Furthermore, in order to strengthen 
and coordinate gender related efforts and projects on the ground, the 
Embassy has an Interagency Gender Policy Group, of which USAID is a 
leading member. Chaired by the Embassy's Ambassador-ranked Coordinating 
Director for Development and Economic Affairs, the group also includes 
representatives from the Embassy's Political, Economic, Public Affairs, 
International Narcotics and Law Enforcement, and Rule of Law Sections. 
Finally, since 2002, USAID has had a full time gender advisor dedicated 
to leading the mission's efforts regarding assistance to women.
    I recognize that Congress has shown great interest over the past 
several years in the status of Afghan women and girls and has directed 
funds for the purpose of improving their lives. In recent years, USAID 
has met and in some instances exceeded the women and girls funding 
requirement based on our own programming. By our own calculations, 
since 2004 we have provided approximately $500 million in assistance 
for women and girls in Afghanistan.
    We will continue to provide direct and project-based assistance to 
women and girls in line with the priorities laid out in the Afghanistan 
National Development Strategy and the National Action Plan for 
Assistance to Women of Afghanistan.
                                progress
    The rule of the Taliban regime had a devastating effect on 
development in Afghanistan, and women and girls continue to bear the 
brunt of these development challenges. Under the Taliban, Afghan women 
and girls were systematically denied the opportunity to engage in the 
political, economic and social sectors of the country. Stripped of 
their most basic human rights, women were forbidden to obtain an 
education and to participate in the workforce. Their health and 
education indicators were among the worst in the world. Only 900,000 
students were enrolled in school--almost all boys. Since most female 
doctors were banned from the workforce, women frequently lacked access 
to even the most basic health care. As a result, Afghanistan had the 
highest infant mortality rate in the world. Women were prohibited from 
participation in civil society and politics. They were required to 
remain hidden and voiceless.
    Considering the plight of women and girls under Taliban rule, the 
achievements in Afghanistan since 2001 are especially remarkable. Girls 
and women are back in school at all levels, and school enrollment tops 
six million students, with women and girls making up over 35 percent of 
that population. Women and children make up 70 percent of those seeking 
health services, and the maternal and child mortality rates have 
decreased. The infant mortality rate has fallen by 25 percent. The 
number of women entrepreneurs and women-led and/or -focused NGOs is 
increasing, and more women are participating in the public and 
political sphere.
                               challenges
    While much progress has been made, many challenges remain. These 
include, but are by no means limited to: violence, a challenging 
legislative process, and overcoming misperceptions regarding female 
participation in USAID programming. Implementation of projects and 
programs overall is made much more difficult by the level of violence 
the country is currently experiencing as a result of the ongoing 
insurgency. That violence is compounded in its effects on women and 
young girls as they traditionally bear the brunt (both physically and 
emotionally) of societal upheaval. Be they young girls seeking to go to 
school or women politicians and police officers seeking to go about 
their given tasks, these women and girls deserve to be praised for 
their courage and efforts. USAID will continue to do all we can to 
provide access to education and health services; training for 
politicians; and support to entrepreneurs as these women are essential 
to the advancement of their country.
    Furthermore, we have been concerned with developments as they 
relate to the Elimination of Violence Against Women Law (EVAW), the 
Shia Personal Status Law, and the recent Parliamentary decree on 
elections and related maters.
    The EVAW is a noteworthy piece of legislation that if implemented 
and enforced consistently could provide tangible benefits and 
protections for women. I am concerned that this has languished in 
Parliament for quite some time and that eventual enforcement of its 
various provisions will not be consistent.
    Despite revisions through the spring of 2009 and extensive domestic 
and international controversy, the Shia Personal Status Law still 
contains many provisions that are quite troubling regarding the status 
of women in Afghanistan. Articles in the law of particular concern 
included minimum age of marriage, polygamy, inheritance rights, right 
of self-determination, freedom of movement, sexual obligations, and 
guardianship.
    As this decree is a fairly new development that we are still 
looking into, I would simply like to note that this is on our radar 
screen and we hope that it fully protects the advances and rights of 
women.
    Finally, one of our ongoing challenges has been to overcome 
societal misperceptions regarding female participation in USAID 
programming. We have found that in order to enable women to obtain even 
the basic necessities of life, USAID needs to provide outreach to 
provincial and district leaders and village elders prior, during and 
following completion of activities.
    By framing the need for the participation of women and girls in 
various education, health, income generation and other activities in 
terms of family and community well-being and benefit, we find that 
activities can be undertaken with the participation of both men and 
women, albeit separately. In other words, we consistently look for 
``buy-in'' from families and communities, and that has led to an 
increased acceptance of women and girls in school, lower maternal and 
child mortality, increased numbers of women and children receiving 
basic health care, ever increasing numbers of women in business, and 
women in all levels of the political process.
                              moving ahead
    As we work to make substantial and sustainable gains for women in 
Afghanistan, the U.S. Government is taking steps to ensure that we 
obtain maximum impact from available resources. Towards that end, we 
promote ``Afghanization,'' the U.S. Government effort to support 
sustainable Afghan-led projects. In that vein we are also working to 
provide more of our assistance directly to and through Afghan entities.
    As it relates to the provision of assistance to women and girls, 
this includes, but is not limited to, our work with the Afghanistan 
Reconstruction Trust Fund (ARTF) and National Solidarity Program (NSP), 
non-governmental and civil society organizations as well as project 
level and direct assistance to Afghan Ministries.
    As you are aware, the U.S. Government is a key contributor to the 
ARTF. Both the recurrent cost (which funds government operating 
expenses such as salaries, operations and maintenance) and the 
investment windows (which funds programs) benefit women and girls. One 
of the largest expenditures within the recurrent cost window is 
salaries for teachers, which increases girls' access to education.
    Gender is taken into consideration for all ARTF project designs. 
The ARTF does have several projects that have developed good 
operational policies for women and girls that are being tracked, 
including the NSP, Microfinance for Poverty Reduction, the Education 
Quality Improvement Project, and the Horticulture Livestock Program. 
ARTF funding supports 15 microfinance institutions throughout 24 
provinces. Women comprise 62 percent (about 273,000) of the program's 
clients and 39 percent (about 1,882) of the program's 4,825 employees. 
The repayment rate is 94.4 percent. Since 2004, ARTF supported the 
construction of more than 800 schools, organized 8,000 school 
management committees, financed 2,500 school improvement plans, trained 
45,000 teachers and provided technical assistance to the Ministry of 
Education (MOE); the program specifically targets women and girls.
    The NSP is designed to ensure gender equity at every step of the 
process: community mobilization to Community Development Council (CDC) 
elections to Community Development Plan formulation to subproject 
implementation, operation and maintenance. NSP is generally 
acknowledged as one of the most inclusive forms of community-
development in Afghanistan. In particular, NSP has quantitative targets 
in the field of activities and women's participation in CDCs. At least 
one project per community financed from NSP must have been prioritized 
by the women.
    In so far as assistance to non-governmental and civil society 
organizations is concerned, USAID has two primary programs that work to 
provide funds to those organizations that are either led by or focused 
on women. Through our Initiative to Promote Afghan Civil Society 
Program (I-PACS) as well as the Ambassador's Small Grants Program, 
USAID is working to provide training, technical support, strategic 
planning assistance, and grants support to non-governmental and civil 
society organizations throughout Afghanistan.
    As part of the overall U.S. Government strategy in Afghanistan, 
USAID is on track to increase the amount of assistance we provide 
directly to Afghan Ministries. This is done through assessments and 
certifications. The Ministry of Women's Affairs has not yet been 
certified to directly receive USAID funds, however, the Ministries of 
Public Health and Communications have been certified and provide 
services that directly benefit women. Furthermore, although the 
Ministry of Women's Affairs has not been certified to receive funds 
directly, we do continue to provide capacity-building activities at the 
Ministry and provincial level programs through the Directorates of 
Women's Affairs.
                               conclusion
    The United States and other donors recognize that while much has 
been achieved, much work also remains to be done with and for the 
benefit of women and girls in Afghanistan. Consequently, the 
international community will continue to work with the Government of 
and people of Afghanistan and international donors to develop 
strategies and plans supportive of the needs of women and girls. While 
Afghanistan's partners have gained valuable insights into development 
issues related to women and girls based on its work in the country, 
additional focus has been provided through the Afghan National 
Development Strategy and the National Action Plan for the Women of 
Afghanistan. Activities focused on women and girls will include 
protection, governance, rule of law, human rights, political 
participation, economic growth and social development in education and 
health.
    The U.S. Government recognizes that the needs of women and girls 
will change as Afghanistan moves across a spectrum of relief, 
stability, reconstruction and sustainable development programming and 
into long-term development assistance. Providing assistance to women 
and girls and encouraging Afghan society's efforts to integrate them 
fully as productive contributors to a peaceful nation and growing 
economy will be long-term efforts.


    Senator Boxer. Thank you. Thank you so much. We're going to 
let you have 7 minutes for questions. I just want to say that's 
a beautiful story. Lucky for them it wasn't the Taliban making 
the decision, which leads to my first question. I'm going to 
ask my questions largely to the Ambassador because they are 
about U.S. policy. But if, Director Bever, you have anything to 
add, please, don't hesitate.
    A December 2009 report by Human Rights Watch found that in 
Afghanistan, ``Well over half of all marriages are forced or 
involve girls under the age of 16. In many of these situations, 
the girls are forced to marry without their consent, and they 
are subject to violence, intimidation, kidnapping; they're 
traded; they're used as compensation. As a result''--and we're 
talking about half of all marriages here, colleagues--``some of 
these young girls take drastic action. For example, on October 
9, an MSNBC article tells of a story of a young Afghan girl 
named Rezagul, who at the age of 11 was married to a man 20 
years her senior.'' So, at 11, ``She endured beatings by her 
husband and his family for failing to do her housework. 
Frustrated and homesick, she doused herself in gasoline''--I 
can barely say this--``and set herself on fire. 'I didn't want 
to be alive,' she said. Fortunately, she survived her injury, 
and she's back home with her own family.''
    There's strong evidence that child and forced marriage lead 
to high rates of sexual violence and material mortality and 
lower educational opportunities for women and girls. And I want 
to share with my colleagues on both sides of the aisle some of 
these statistics. One out of every five children dies before 
the age of 5 in Afghanistan. Life expectancy for women is 44 
years old. And the maternal mortality rate is the second 
highest in the world. One woman dies every 27 minutes due to 
pregnancy-related conditions.
    So, my question is: What pressure can we put--and can the 
world put--on the Afghan Government to enforce the laws that 
protect women and girls from child and forced marriage? There 
are laws that say you can't marry her off until she is 15. 
That's bad enough in itself. Here are girls who are 11 years 
old. So, Ambassador, what can we do if we focus like a laser 
beam on this one issue? Half of all marriages involve girls 
under 16, and most of those are under protest.
    Ambassador Verveer. Thank you for that, Senator. It's a 
really terrible, terrible problem, and you're so right. The 
system tolerates it, and that is what has to change. We have 
done several things. There are several levers, many of which 
have to come together in a way that have not yet come together. 
But there is one development that I think could have some 
significant impact, and that is the recent decree of the 
Elimination of Violence Against Women Act, which has been 
promulgated in the country. It is law. It hasn't been 
implemented. Nothing has basically happened with it, but it is 
really an extraordinary piece of legislating that trumps a lot 
of the other problems we've seen, like the Shia law.
    I think if we can do a massive campaign to basically 
demonstrate why violence against women is wrong in all of its 
forms--and this is one of the most egregious--and enable women 
to understand their rights at every level and begin to ensure 
that violators do get prosecuted for those violations. We need 
awareness and we need the prosecution.
    Senator Boxer. Yes. Well, I am really glad that you told us 
about this because, clearly, they are not enforcing the old law 
which prohibited marriage under 15 years of age. Now there's a 
new law--but it means zero if they don't implement it. And I 
was saying to Senator Wicker, if there's a way for us to help, 
both sides of the aisle, writing a letter and moving forward 
and giving you the backup you need to say we expect to see this 
law implemented or we're just not going to be so generous, let 
us know. We can't close our eyes to this. We've got to do 
something--I'm not saying ``linkage'' per se, but I'm saying 
expectations per se. We expect this.
    Now, here's another situation. There's been considerable 
news about President Karzai's plan to reintegrate members of 
the Taliban into Afghan politics and society. We all want to 
see a reformed Taliban. Let's say we want to see them come 
forward and reject their policies. However, we have to be 
realistic here, and Director Bever makes a good point that 
there are so many good people in Afghanistan, but we have a 
problem with the Taliban. And I don't think I need to remind 
anyone we're talking about reintegrating the same Taliban who 
engaged in the brutal assault on women in Afghanistan, the same 
Taliban who required that windows of Afghan homes be painted 
over, so no one could see a woman inside, and forced the 
wearing of the burkha, which Ellie Smieal forced me to put on 
years and years and years ago. And when I put that burkha on, I 
swear to you, I--I couldn't breathe, and I realized that I had 
disappeared, which, by the way, some people were very excited. 
But----
    [Laughter]
    Senator Wicker. I'm not even going to smile. [Laughter]
    Senator Boxer [continuing]. I could not even smile in it. 
The fact is we can't have half the population subjected to 
becoming nothing and no one. And as we point out, all of us, 
men and women alike, half the country, have to play a role in 
the stability and the prosperity of this country. So, these are 
the same Taliban who, even today, take pride in throwing acid 
in the faces of young school girls.
    So every integration effort ought to be pursued, and we all 
want to see everyone come together and walk away from this 
horrible tainted past. It seems to me women must play a role--a 
key role--to ensure that the protection of their rights is a 
priority, and they must not be silenced. Now, that's why I'm so 
thrilled you've amended this document. I am so happy this 
document has been amended to include women in everything that 
we do there.
    I have a tough question, but I'm still going to press you 
for an answer, both of you. Do you believe that Afghan 
President Karzai is committed to ensuring that women's rights 
are not traded away?
    Ambassador Verveer. Well, he says he's committed. This was 
raised with him very significantly at the recent London 
meeting. Secretary Clinton went out of her way to put this on 
the agenda in a high priority fashion. It appears in the 
communique. It appears in all of the literature and statements 
that came out of that meeting. We have been working and hearing 
from the women in Afghanistan who, obviously, are deeply 
concerned. They articulated those concerns, those of them who 
came from civil society to London and had an opportunity to 
speak to that.
    Now it's going to be watching and ensuring. I don't want to 
sit here and say it's too late. I don't want to sit and say 
there's no hope, because I think that is the worst message to 
send, for sure, but whatever messages we send have to be based 
on reality.
    Senator Boxer. Yes.
    Ambassador Verveer. I would believe that the reality is 
that they will have that opportunity that's been articulated to 
participate in the discussions. The peace Jirga is coming up 
very soon. It's where some of the conversation will begin to 
take place about the seriousness of this proposition that's put 
before the country. They have got to be there. They've got to 
be in all the other related discussions, and they have to be 
part of what happens going forward, and we have to ensure that 
that process is an honest process that's inclusive.
    Senator Boxer. Well, my time has expired. But here's what I 
want to say, and I ask you both for this: Since President 
Karzai has said the words that we want to hear, that he is 
committed to ensuring that the women are included, that he is 
strongly behind this Violence Against Women Act, that he has 
agreed to enforce these things, I need to know from both of you 
that you will stay in very close touch with both sides of the 
aisle on this committee to give us a report, because we want to 
know. I don't want to have to read these stories and learn 
there's another case of a young girl committing suicide or 
running away or getting harmed because she was forced into a 
marriage at age 11. We need to make sure that these words 
represent the deeds that are going to follow. So, do I have 
both your word that you will get back to us on a regular basis 
to let us know if things are going better, and when they start 
enforcing the law, or if they're not enforcing it, because you 
are our eyes and ears, and we trust you to do that. Will you do 
that for us?
    Ambassador Verveer. It goes without saying, Senator, and 
also I'm here today with other members of the State staff who 
are focused on Afghanistan, and we're working on this 
assiduously.
    Senator Boxer. Well, we need your feedback. Senator Wicker.
    Senator Wicker. Thank you, Madam Chair. Before I begin my 
questions, I just can't help wondering is there somewhere out 
there a picture of Barbara Boxer in a burkha. [Laughter]
    Senator Boxer. There probably is. I'm not giving it to you. 
[Laughter]
    Senator Wicker. OK. This is a very troubling subject, and 
Senator Boxer chose to ask about marriages. It's hard to decide 
where to begin, and I think I will try to ask about health and 
maybe governance.
    In many areas, even where the Taliban is no longer there, a 
woman or a girl cannot be touched by a male physician or a male 
nurse. And if that happened, it's not only a mortification, if 
you will, it disqualifies that young woman from ever being 
married. It's that serious. Are there efforts--are there enough 
women midwives and women providers to answer that problem in 
Afghanistan?
    Ambassador Verveer. I'm sure Jim probably wants to talk 
about this as well, but let me just say that I think even 
though the indicators for health and for access to health have 
been so low that it's hard to--when you say there's been 
progress, it's hard to actually see tremendous progress because 
we're starting from such a low level. But this is one of those 
areas in which I think we can justifiably take some pride that 
we have made some steps that have been very positive, and one 
is the ability to train midwives and to have greater numbers of 
them who can begin to address some of these critical health 
needs, particularly given the maternal mortality rate, which is 
stunningly high, and the child survival rate, which is 
stunningly low.
    Senator Wicker. And the life expectancy.
    Ambassador Verveer. Right. And the indicators are beginning 
to climb. Ever so slightly, they're beginning to climb.
    Senator Wicker. So, you can give us numbers to indicate 
greater participation by women in the health care field. OK.
    And, Director Bever, would you like to respond also?
    Mr. Bever. Yes. You, Senator, you've pointed to a very 
important, basic, fundamental starting point, which is health, 
which has in some ways, one could say, discriminated against 
women's health over time, particularly during the Taliban 
period. There is some prospect for improvement there. We and 
others have worked very hard at this as have, most importantly, 
leaders who attend the Afghan health system themselves. I do 
have a few numbers, but I can send some more for the record.
    The under-5 mortality rate was 250 or so per 1,000 live 
births per year. It has dropped to below 200. So, that's a 25-
percent improvement since the time of the Taliban, over 8 
years, if you're talking about access to basic health services. 
But this is very minimal health services. A rural clinic with 
very minimal support went from less than 10 percent of the 
population, around the time that we dispersed the Taliban in 
late 2001, to about 64 percent today.
    The coverage of female health workers, which is one thing 
you mentioned, Senator, is very interesting in this regard. 
With Afghan Health Ministry's efforts and NGO efforts, it's 
gone from less--about 25 percent access to facilities with 
female health workers, those who can deal with a woman or a 
girl's problems, to over 85 percent today. But, I have to say, 
it's very rudimentary. They are minimally trained. They have 
minimal pharmaceuticals, and there's a great deal of room for 
improvement.
    The other one is antenatal services. About the time the 
Taliban were dispersed, it was about 5 percent of pregnant 
women who used antenatal services. Now it's 32 percent. It 
should be 100 percent, but in the conflict situation that has 
prevailed, particularly in the East and South, this has been 
especially difficult.
    So, those are just some indicators that, yes, we have some 
statistics. The health and medical surveillance system is very 
weak in Afghanistan, but it's improving, but there's a long 
ways to go.
    Senator Wicker. Well, thank you for that.
    I would just observe it would seem to me that that progress 
in this area would be a double benefit of providing the health 
service, but also a role model for young girls to see that 
health care professional performing.
    And, quickly, here's my little vignette. I was chatting 
with both of you before the hearing began. I was in the 
southern Afghanistan town of Garmsir, which is in Helmand 
province. It's a town that has been retaken from the Taliban. 
And our delegation walked through the bazaar in this town. We 
must have seen a thousand people. There were no women and girls 
out, and the streets were lined to see this delegation of 
Senators, one of whom was Lisa Murakowski, a female U.S. 
Senator from America. No women.
    So, there's 28 percent now of the Parliament that is 
female. They exceeded the quota. In a community like that, this 
is what you're up against. A town that's no longer Taliban, and 
a girl alone will not show her face. Where do you find the 
leadership? And in that Parliament, are there women with 
university education? And so, if you could use my observations 
as a starting point and answer the question, if you can.
    Ambassador Verveer. It's a good starting point, Senator, 
you know, and you remind me that not only have women not been 
able to access male health practitioners, for example, but 
either they can leave their homes to go get the training they 
require to be, for example, midwives. So, one of the more 
successful efforts has been working with our Afghan partners to 
enlist mullahs who will sanction the women leaving their homes, 
going to another community, getting the training they need to 
come back and work in their own communities. So, it has 
required a real integrated approach, to the extent it can 
always be gotten, to deal with some of these severe barriers.
    But what you point out in terms of the women in the 
Parliament, they are there. In terms of their educational 
background, their educational background is higher 
proportionately compared to their male colleagues', and they 
have literally taken their lives in their hands to get it 
because of the threat to them every single day. When I was 
recently talking to a parliamentarian whose district was in the 
West, I asked her--I said, ``How do you make this trip?'' 
Because it's so arduous. And she said, ``I fly to Herat, and 
then I pray from the moment I get in a car to drive 2 hours to 
get to my district, never knowing I am going to get here. And 
that's where my family is, and that's where the people are whom 
I serve.''
    So, they are serving at great personal risk to themselves, 
and it is why, in order to have more women fully participating, 
particularly in public life, security is something that 
critically has to be addressed, and it has to be addressed, 
obviously, by the Afghan Government to ensure that they've got 
the kind of protection they need.
    Mr. Bever. If I may just add, I've also served 8 years in 
India and in Pakistan, and my own observations are that a lot 
of the women's empowerment in a political sense also comes from 
the grassroots. Once women have economic power, once they have 
some means to earn income in their communities, it gains them a 
role in the family of a financial fiduciary level. It gains 
them some credit in the community and, if you will, buys them 
access into the political system.
    So, one of the programs that we've been very proud to 
support is a national solidarity program--and I'm sure Sima 
Samar may comment on that one when it's her turn--which 
involves women a lot more at the local level in the community 
development councils. So, these are important features both of 
involvement and of income generation, and we, with the aid 
money, will also be helping to improve microcredit for women in 
the country.
    Just one other comment, if I could, related to--if I'm 
allowed--related to the question about President Karzai----
    Senator Boxer. Yes.
    Mr. Bever [continuing]. Whether he's committed. I saw him 
very committed to women's issues in the constitutional Loya 
Jirga back late 2003. We would like to trust him, but we--the 
verification of that trust will come from other things, like 
civil society advocacy, legal defense, women judges, whether 
the mullahs and the religious leadership, as the Ambassador 
mentioned, are in fact--particularly those in the moderate, and 
they are many moderates in that group--willing to step up and 
stand up, and the press. Those are all the features that are 
needed to put the formula together to hold this commitment to 
its conclusion.
    Senator Boxer. Thank you very much. Thank you, Senator 
Wicker. Thank you, Senator Casey.
    Senator Casey. Thank you very much, Madam Chair. I wanted 
to start with just a brief commentary or notation of an article 
from the New York Times Magazine this past summer, in August. 
Many have heard the story, the horrific story, about a number 
of young girls being sprayed with battery acid in their faces 
and other parts of their body. The name of this--the title of 
this article was ``A School Bus for Shamsia,'' by Dexter 
Filkins. And he, of course, provides almost a minute-by-minute 
recitation of the attack. I won't read all that. It's easy to 
imagine how horrible that was, or at least attempt to 
understand how horrible that was upon reading it.
    But he goes on to say, later, that he--when he came back to 
see her--or when he saw her many months later, he said that a 
scarlet scar the size of a tennis ball still covered her face. 
And she said, and I quote--he's quoting her now--``I cried a 
lot after the attack.'' She said, ``My mother''--or ``my 
parents told me to keep coming to school even if I am killed.''
    But despite all that horror, there's some good news. He 
reports in the article that the school that she was attending 
had closed after the acid attacks, but only for a week. And 
when he showed up there, he saw her, Shamsia, and he said she 
was not only in attendance, but animated and lively. Just a 
remarkable testimony to how they could overcome that kind of 
horror, and I hope it gives all of us some bit of inspiration 
to keep going.
    And I know, Ambassador Verveer, you've seen some progress 
made, albeit too gradual and too slow-moving, but I wanted to 
ask you a couple of questions about some of the mechanics or 
the elements here of the challenge. One of the broadest 
problems we have with regard to our strategy in Afghanistan is 
accelerating as fast as humanly possible the training of the 
Afghan Army and the police. But in preparation for this 
hearing, an aspect of the police training I wasn't focused on 
was the lack of police training as it relates to gender-based 
violence and all of the training that should go with that.
    And I wanted to get your sense of whether or not progress 
has been made on that, and a related question, I guess, would 
be with regard to women voters. On paper, I guess, they have 
the opportunity to vote, but if the polling station isn't 
secured and they're not able to vote, they obviously are 
disenfranchised. The question of security at polling places for 
women--what's the progress, if any, on both of those, the 
police training and gender-based violence and the voting 
question?
    Ambassador Verveer. They're two very good questions, 
Senator. Let's start with the electoral question, because we 
have parliamentary elections that are going to be on top of us 
before we know it, and the record of the last election was 
fraught with all kinds of challenges and fraud, et cetera. It 
is a big problem for women to not only vote safely but also to 
ensure that the votes that are cast are sacrosanct and that 
others aren't voting on their behalf--in numbers that sometimes 
are larger than the number of women in the village.
    And there has been a decree that has been made in the last 
several weeks for electoral changes that, for example--among 
other elements that we are still studying and trying to 
understand because the language is difficult and it's very 
complicated, we're trying to understand the full consequences 
of it--President Karzai now has the full power to name all the 
commissioners on the commission. They are Presidential 
appointees. The commission formerly, for example, had 
international reps; it had the Human Rights Commission that 
Sima Samar represents. And no longer will that be the case.
    What the implications of this are remains to be seen. There 
are other issues that have to do with whether or not this 
impacts women's seats or seats that women have held under the 
quota. If, for example, there's a vacancy, is that 
automatically going to a man in this case or will it follow the 
rules that have existed under the Constitution? And there are 
related issues having to do with threshold amounts of resources 
to run for office. So, those are the issues that I think have 
to be seriously looked at, and we are doing that, trying to 
understand the magnitude of this law.
    But the ability of women to vote--and we all have that 
image in our eyes, just as you just described that New York 
Times Magazine story, which is hard to forget once you've read 
it. The image of what it represented for the women to vote--we 
have a photo in our office of an Afghan women, burkha-clad, who 
is casting her vote for the first time. Women have to have that 
right, and we have to do everything in our power to ensure it. 
And we have various proposals that we've been discussing to try 
to move that forward, certainly for the next election cycle.
    In terms of the policing issue and whether or not as this 
transition is being made and we see more Afghan police trained, 
more security forces, whether or not there will be a 
sensitivity too, as there must, to protecting women, to the 
consequences of gender-based violence, to the criminality of 
gender-based violence, have to be part of the training. I think 
this is something we need to do more about, and to the extent 
that we can do that, we need to do that because I think we are 
not in an optimal situation today.
    Senator Casey. I'll have a little more when we get some 
more time. Thank you.
    Senator Boxer. Senator Shaheen.
    Senator Shaheen. Thank you very much, Madam Chairman. And 
thank you to you and Senator Casey for holding this hearing 
today. I also want to thank our panelists, both Ambassador 
Verveer and Mr. Bever, and our next panel, Dr. Samar, who I had 
a chance to speak with in Afghanistan--it's so great to see you 
here--and Ms. Reid. Thank you both for coming this long way to 
be here.
    I'm going to repeat what we've already heard from the other 
Senators here today, but because I think it's so important to 
point out the commitment of this administration, the President 
and Secretary Clinton, to the importance of women and girls in 
Afghanistan and around the world.
    You've all mentioned the importance of empowering women and 
what that does for families, for communities, and for 
countries. And I think it's very important that we integrate 
women's issues, this commitment to empowering women, more fully 
into all of our foreign policy. We shouldn't take an ad hoc 
approach and treat women's issues as a separate piece of our 
development and assistance puzzle. It needs to be integrated 
throughout everything we do. And I know all of you appreciate 
that, but I think it's important to state for the record again 
how critical this is.
    You've all alluded to the question of security for women in 
Afghanistan, but to what extent are women still the direct 
target of the insurgents, and is this continuing to be a 
component of our current security strategy, and do we need to 
do more?
    Ambassador Verveer. Well, I think there's always room for 
improvement, Senator. Clearly, and as we read about growing 
numbers of cases--and I'm sure especially Dr. Samar, who is 
there on the ground seeing these issues every single moment, 
can bring more light to that. But it's clearly still a very, 
very big challenge.
    Senator Casey asked about the training for some of the male 
policemen and security forces as their numbers grow. One of the 
things that has been very successful that we've done and also 
need to grow are the Family Response Units, which include safe 
places where victims of abuse can come and not just get 
counseling and be in a safe place, but also places that provide 
training to police personnel who can ensure that these are the 
exceptions and not the norm, because these are not activities 
that should be condoned or practices that should be condoned.
    So, I think we have some very good programs that need to 
grow and need to expand, and we need to learn from those 
experiences, but this is not a problem that doesn't need to 
concern us. Women are still very much targets of abuse. And 
violence against women is endemic, and then there is the 
purposeful kind of political violence that is directed in ways 
that we've been discussing here, particularly against women who 
dare to participate in public life.
    Senator Shaheen. Mr. Bever, do you have anything you want 
to add to that?
    Mr. Bever. Yes. I'd just add it's important to keep 
supporting protection for judges, whether they're male or 
female. When they have enough courage to bring a case before a 
court, that there's not retribution for them during or after 
that case, and that the convictions, if there are, that they 
get carried out, that the prosecutors are also protected, that 
the witnesses are protected. These are extremely important 
elements, as you know, of a rule of law that are highly 
challenged in many places in Afghanistan.
    I would also just add that I think what we ought to be 
looking into more--and I have discussed this briefly with 
Minister of the Interior Hanif Atmar--ways to involve the 
communities in Afghanistan to hold the police accountable to 
the law and to protect the community and to do their jobs. We 
have the authorities--had had them in past--for exemptions for 
what is known as section 660 in the Foreign Assistance Act, 
that allows us to do what's called ``community policing.'' I 
think it may be coming to be time to do that in Afghanistan, 
and I think we have a partner in someone like Interior Minister 
Atmar and other reformers in the Cabinet.
    Senator Shaheen. Thank you. We had the opportunity to meet 
with Minister Atmar last year when we visited Afghanistan and 
asked him about the training on domestic violence and violence 
against women for law enforcement, and he indicated his 
commitment and efforts to address that.
    You've talked about some of the successes that would seem 
not as much as we all would like, but some of those--if you had 
to pick one area that's a priority for progress in the coming 
year, what would that be? Where should we be focused to get the 
most benefit for the efforts that we're putting in?
    Ambassador Verveer. I would pick two areas, Senator, if I 
might. One is certainly the political participation to enable 
women at the most grassroots level in these community councils 
where they're able to work on projects that can change their 
community, and, as Jim mentioned, hopefully even hold their 
officials responsible, learn that empowerment at both the most 
local level as well as the level that we opened this session 
about, which is in terms of the reintegration process and where 
the future of the country goes politically, so that they can 
participate fully and help chart that course in the right 
direction.
    Second, I think, economic empowerment. We know that when it 
comes to even dealing with violence against women, it is so 
critical for a woman's enhanced status and for her personal 
confidence and well-being to be able to have that tangible 
opportunity to work and to earn a living, to be able to support 
herself and her family. I think to focus on vocational 
education that is really focused on the jobs women can do--and 
that's just about anything--we really need to be doing more of 
that. Agriculture has proven to be a very successful area in 
which women have begun to be more engaged, whether it's in 
animal husbandry or it's in crops or small business 
development.
    I think a greater concerted effort in this area to grow 
economic empowerment would have a powerful impact because it 
would also show that there is progress that is being made for 
the people as a whole, and when their lives improve, there is a 
belief in the future.
    Thank you.
    Senator Boxer. Thank you so much. Well, this ends our first 
panel. I just want to thank the Ambassador and Director for 
their candor. And we know their commitment is powerful. I just 
want to say those of us on this panel are going to count on you 
to be our eyes and ears. We want to help you. And our work is 
only as good as the information we get because we want to be 
strong here, but we can't if we don't know what's happening on 
the ground. So, help us with that. You've said you will. We 
count on you, and night or day we're always available to hear 
from you.
    Thank you both for your dedication. Thank you very much.
    And at this time, I'm going to hand this gavel over to 
chairman of the Subcommittee, Senator Casey, and he is going to 
introduce a very special second panel.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. Thank you very much. I want to thank 
Chairwoman Boxer for presiding at the first part of our hearing 
and for the first panel. We're grateful for her leadership on 
these issues. And we look forward to our second panel, even as 
we say thank you to those on the first panel who are leaving. 
Thank you very much for your testimony.
    Let me start by--I'll just--I want to put an opening 
statement into the record, and then we'll take our--we'll take 
the testimony from our witnesses.
    Today, the subcommittee meets to examine the many crises 
confronting Afghan women and girls, a topic which has important 
humanitarian as well as national security implications. Our 
development assistance as well as our civil engagement strategy 
in Afghanistan should start with a focus on women and girls, 
especially given the central role they play in Afghan society, 
and improving their lives today can have a ripple effect on 
helping generations of Afghans on a wide range of issues, 
including equality before the law, nutrition, education, and 
security. Supporting women and girls in Afghanistan is not only 
in our national interest; it is the right thing to do.
    Since the fall of the Taliban, there have been some 
improvements to women's rights, such as the creation of the 
Ministry for Women's Affairs and the guarantee of equal rights 
for men and women in the new constitution.
    Yet, despite the Afghan Government's pledges to continue 
advancing women's rights, there have been minimal 
followthrough. Indeed, Afghan women remain among the worst in 
the world with respect to life expectancy, as we heard earlier 
from Chairwoman Boxer, as well as quality of life. The U.N. 
High Commissioner for Human Rights has stressed that it is the 
Afghan Government's responsibility to lead the fight to reduce 
violent actions against women by educating the population and 
demonstrating an active commitment to safeguarding women's 
rights.
    Just last year, a report released by the U.N. entitled, 
``Silence Is Violence'' illustrates the trend of violence 
against women, including rape, which is on the rise. The report 
discusses the numerous attacks on girls schools and female 
students, including gas, and as I noted earlier, acid attacks. 
Many incidents of violence and rape go unreported, and when 
they are reported, they are rarely a priority for the police.
    A human rights report recently published by Canada's 
Foreign Minister--or Foreign Affairs Department, I should say, 
highlights the increasing rate at which women are turning to 
suicide to escape the abuse they suffer daily. Many of the 
women who commit suicide are in their early twenties. Almost 
two-thirds of Afghan marriages involve girls under the age of 
16, as Chairwoman Boxer noted, many of whom are forced into 
marriage. Some girls try to escape, but there are few places 
for them to go, and some only find shelter in prison.
    Afghan women face an uphill battle in politics, too. In 
last year's Presidential election, Afghan women were unable to 
exercise their basic rights of suffrage because they require a 
separate polling place, many of which weren't open due to a 
lack of female electoral staff. We have received reports that 
Afghan officials are considering changes, as was noted earlier, 
which could diminish the role of women in Parliament.
    The United States Government can do more to help Afghan 
women. The Afghan Civilian Assistance Program has had great 
success in delivering supplies to help families rebuild their 
lives in conflict areas of the country. In the event of 
civilian deaths in Afghanistan due to ISAF operations, 
compensation for families across the country is uneven, despite 
ISAF countries providing different levels of compensation or no 
compensation at all. In a culture where compensation is 
expected, this has caused more suffering among women in 
particular, who need immediate funds for funerals, to travel, 
to stay with family, or to feed their children. I know that 
General McChrystal has championed an effort to create uniform 
standards for family compensation, and I hope the upcoming NATO 
ministerial conference will address this important issue.
    We are joined today by an esteemed panel of experts, both 
the first and the second panel. On our second panel, I'll first 
introduce Dr. Sima Samar, Chair of the Afghan Independent Human 
Rights Commission. Dr. Samar also served as the--or serves, I 
should say, as the United Nations Special Rapporteur on the 
situation of human rights in the Sudan.
    Our second witness is Rachel Reid, a Kabul-based researcher 
for Human Rights Watch. She is also--also has an extensive 
journalism background, working as a reporter, editor, and 
producer for the BBC. And at this moment, we will--I think 
we'll just take the testimony. Doctor, you may start, and we'll 
take your testimony. We'll try to do our best to summarize a 
longer statement. If you want to put a statement in the record, 
that will certainly be part of the procedure. But if you could 
limit your opening to about 10 minutes, we'd appreciate it. 
Thank you, Doctor.

  STATEMENT OF DR. SIMA SAMAR, CHAIR, AFGHANISTAN INDEPENDENT 
          HUMAN RIGHTS COMMISSION, KABUL, AFGHANISTAN

    Dr. Samar. Senator Boxer, Senator Casey, and Members of the 
Foreign Relations Committee, thank you for inviting me to 
testify before you today.
    Without a doubt, Afghanistan would not even be at this 
stage of security or development without the support and 
assistance of the international community, especially the 
United States. However, it is a not enough; much more needs to 
be done to gain the hearts and the mind of the public.
    Today, I will mainly focus on the situation of human rights 
and women's rights. The situation in this area has improved a 
great deal since the Taliban rule. Access to education for 
women and girls is much better. At least, there are no official 
bans on female education, which was the case during Taliban. 
Still, about 40 percent of girls have not access to education. 
Girls who attend schools are also subject to various forms of 
reprisal such as the acid attack and all the other kinds of 
violations.
    Access to basic health services has improved in 
Afghanistan, but in many parts of Afghanistan, women have not 
seen a medical doctor in their entire lives. Maternal and 
infant mortality rates are among the highest in the world.
    The political participation of women is very limited. At 
the recent conference on Afghanistan in London, no women or no 
human rights activists were included in our government's 
delegation. After the recent elections, only one woman was 
approved as a minister.
    The electoral process must guarantee the fairness, 
legitimacy, and credibility of the whole process, including the 
full and equal participation of women voters. The new election 
law does not provide these assurances and guarantees.
    Women's access to justice is also very limited. One of the 
reasons is the low number of women in the judiciary system. No 
women are in the Supreme Court Council.
    Women's rights remain unprotected under the laws of the 
country. The Shia personal status law, for example, violates 
the constitutional and international treaty obligations of the 
Afghan government.
    Most women lack economic empowerment and live in poverty.
    A culture of impunity exists for sexual violence in the 
country. Forced marriages, child marriages, and exchange 
marriages and the sale of the girls are prevalent.
    Support for the tribal system will only accelerate these 
practices and will continue the denial of the rights of women 
and girls.
    The lack of security reduces the freedom of women and of 
expression. Security must be defined to include human rights, 
women's rights, and economic well-being, along with the absence 
of fighting.
    Accountability for all violations of human rights and 
women's rights is a prerequisite for security.
    I appreciate the opportunity to share some of my 
recommendations.
    First, recognition that women exist in Afghanistan is 
important. The lack of mention and recognition of women's 
rights by the United States and the international community 
allows Afghan men in different state institutions to continue 
to ignore women's rights.
    Second, women must be included in decisionmaking, peace 
talks, and peace-building. The strong military and political 
presence of the international community and U.N. Security 
Council Resolutions such as 1325 and 1820 are made meaningless 
when a new policy of reintegration and reconciliation with the 
so-called good Taliban is considered without any discussion of 
the consequences for women and women's work. Women were the 
primary victims of the Taliban in the past, and they will be in 
the future unless attention to women's rights is paid and 
upheld by the Afghan Government and the international 
community, particularly the U.S. Government.
    Third, political solutions should not be interpreted solely 
as negotiations with Taliban and opposition groups. These 
efforts should not be allowed to overshadow desperately needed 
work to enhance good governance, rule of law, and human rights. 
Any political negotiation with the antigovernment elements must 
address accountability and justice. Rather than being 
marginalized, the principles of human rights and women's rights 
should be fundamental.
    Fourth, without full participation of women, the problems 
in Afghanistan cannot be solved. Respect for culture and 
religion should not be used as an excuse to ignore women's 
rights in Afghanistan. This excuse over the past three decades 
of war has been disastrous for women.
    Fifth, support for the education for women at all levels is 
the main tool to empower women and to change the mentality 
within the society.
    Sixth, women's access to health care, especially to 
reproductive health care, is vital, which is not enough.
    Seventh, long-term commitment and comprehensive strategies 
for the international community are needed to enable the Afghan 
Government to overcome the challenges. Strong political will is 
needed by the all parties to promote and protect human rights 
and women's rights and to support good governance and rule of 
law.
    Ninth, human rights and women's rights should be at the 
center of every policy if we really want to achieve peace in 
Afghanistan. Neither peace and stability, nor development and 
security can be achieved unless human rights and women's rights 
are sustained and promoted. Accountability must replace 
impunity. A culture of peace building will not be complete or 
sustainable. The people who believe in democracy and human 
rights defenders must be supported politically and morally.
    Finally, the job in Afghanistan is not done. Short-term 
fixes are not going to solve the problem. By joining our hands 
together, we will be able to complete and achieve the goal.
    Thank you very much.


    [The prepared statement of Dr. Samar follows:]


                  Prepared Statement of Dr. Sima Samar

    Senator Boxer, Senator Casey and Members of the Foreign Relations 
Committee,
    Thank you for inviting me to testify before you today.
    Without a doubt, Afghanistan would not even be at this stage of 
security or development without the support and assistance of the 
International Community, and especially the United States. What has 
been achieved so far is vital for the transition of Afghanistan from a 
malfunctioning administration to a semi-operational government with 
functional state institutions. However, it is a not enough. Much more 
needs to be achieved to gain the hearts and minds of the public.
    The U.S. intervention and continued mission in Afghanistan has had 
several justifications--to fight terrorism, to reduce on poppy 
production, to protect human rights, particularly women rights, to 
promote democracy, and, finally, to protect your country and your own 
people.
    Today, I will mainly focus on the situation of human rights and 
women's rights in Afghanistan.
    The protection and promotion of human rights, women's rights and 
gender equality has improved a great deal since the Taliban rule in 
Afghanistan. For example:


   Access to education for women and girls is much better. At least, 
        there are no official bans on female education, which was the 
        case during Taliban. However, still only about 40 % of girls 
        have access to education. Also, the quality of education is not 
        as good as it should be. In rural areas of the country, 
        restrictions on girls' access to education continue because of 
        the lack of facilities, school buildings, and trained teachers, 
        especially female teachers. Moreover, in some parts of the 
        country, girls who attend schools have been subject to various 
        forms of reprisal such as the acid attack in Qandahar.

   Access to basic health services has improved in Afghanistan. But, 
        we still face the same problems. In many parts of Afghanistan, 
        women have not seen a medical doctor in their entire lives. 
        Women have no means to control the number of the children that 
        they have. Maternal and infant mortality rates are among the 
        highest in the world.

   The political participation of women is very limited. At the recent 
        conference on Afghanistan in London, no women or human rights 
        activists were included in our government's delegation. After 
        the recent elections in the country, only one woman was 
        approved as a minister despite the lobbying efforts of women 
        rights activists. Nominations of three women cabinet members 
        were proposed to the parliament. However, only one of them 
        received the vote of confidence. No women are included in the 
        National Security Council. Twenty-five percent of the 
        parliament is comprised of women because of the constitutional 
        quota system. However, these women are not independent of most 
        of the powerful men in the parliament.

   The electoral process must guarantee the fairness , legitimacy and 
        credibility of the whole process, including the full and equal 
        participation of women voters. The new election law does not 
        provide these assurances.

   Women's access to justice is also very limited. One of the reason 
        is the low number of women in the judiciary system. No women 
        are in the Supreme Court Council.

   Women's rights remain unprotected under the laws of the country. An 
        example is the Shia personal status law, which violates the 
        international and constitutional obligation of the Afghan 
        government to abide by the international treaties the 
        government signed and joined. The introduction of legislation 
        to eliminate violence against women is a positive step, but it 
        is stuck in the parliament.

   Most women lack economic empowerment and live in poverty. The 
        absolute majority of women are not independent economically. 
        Although some women have their own business, there are few of 
        them.

   A culture of impunity exists for sexual violence in the country. It 
        is always seen as private matter of the family. State 
        institutions refuse to intervene in some cases. In other cases, 
        they promote the ownership of females in the family by men.

   Finally, forced marriage, child marriage, and exchange marriage in 
        which girls are given to disputes in the family or tribe are 
        prevalent in the county. The sale of girls is still very common 
        practice. Supporting for the tribal system will only accelerate 
        these practices and will continue the denial of the rights of 
        women and girls.

   The lack of security is another problem that reduces the freedom of 
        women and freedom of expression in general. Security must be 
        defined to include human rights, women's rights, and economic 
        well-being, along with the absence of fighting. The absence of 
        security undermines women's rights and human rights. 
        Accountability and justice for violation of human rights and 
        women's rights is a pre-requisite for security.


    I appreciate the opportunity to share some of my recommendations.
    First, the recognition that women exist in Afghanistan is 
important. The lack of mention and recognition by the United States and 
the international community of women's rights allow Afghan men in 
different state institution to continue to ignore women's rights.
    Second, women must be included in decision-making, peace talks, and 
peace building. The strong military and political presence of the 
international community and important United Nations Security Council 
Resolutions 1325 and 1820 are made meaningless when a new policy of 
reintegration and reconciliation with the so-called good Taliban is 
considered without any discussion of the consequences for women. Women 
were the primary victims of the Taliban in the past and will be in the 
future unless attention to women's rights is paid and upheld by both 
the Afghan government and the international community, particularly the 
United States.
    Third, emphasis on political solutions should not be interpreted 
solely as negotiations with Taliban and opposition groups. These 
efforts should not be allowed to overshadow desperately needed work to 
enhance the capacity and capability of the existing institutions based 
on good governance, rule of law and human rights. Any political 
negotiationa with the anti-government elements must address 
accountability and justice. Rather than being marginalized, the 
principles of human rights and women's rights should be fundamental. 
Victims of human rights violations should not be victimized for 
political gains again and again.
    Fourth, without full participation of women, who are the half of 
the population who are supportive of peace, freedom and democracy, the 
problems in Afghanistan can not be solved. Respect for culture and 
religion should not be used as an excuse to ignore women's rights in 
Afghanistan. This excuse over the past three decades of war has been 
disastrous for women.
    Fifth, support for the education for women at all levels is the 
main tool to empower women. Little attention has been paid in this 
sector. For example, with all the talks about women's empowerment, 
there are no institutions to teach and train people, especially young 
generation on human rights, democracy and gender to enable the people 
to understand and structurally mainstream gender and human rights in 
their advocacy efforts.
    Sixth, women's access to health care, especially to reproductive 
health care is vital. Women must be given the choice to control their 
own body and the number of the children that they have. If women have 
10 children they will not be healthy and cannot take an active part in 
political and social activities.
    Seventh, women's participation at the decision making level is 
crucial to the situation. Women's issues are political issues. Without 
women's full participation in politics, not single decision will be in 
their favor and friendly to women's rights.
    Eighth, the chronic problems of a country like Afghanistan require 
long-term commitment and comprehensive strategies from the 
international community to enable the Afghan Government to overcome the 
challenges and troubles facing peace and stability in the country.
    Of course, any possible progress in the country requires the Afghan 
Government to enhance its capacity to absorb international aid and 
development assistance and to increase its commitment to good 
governance, rule of law, human rights and justice. Strong political 
will is needed by the Afghan government and international community as 
partner to the Afghans for promotion and protection human rights and 
women's rights in Afghanistan.
    Nineth, human rights and women's rights should be at the center of 
every policy if we really want to achieve peace in Afghanistan. Neither 
peace and stability, nor development and security can be achieved 
unless human rights and women's rights are sustained and promoted. 
Accountability must replace impunity. One of the most important 
ingredients of peace is justice. Without justice, the peace building 
will not be complete or sustainable. As Kofi Anan rightly emphasized--
development without security is not possible, and security is not 
possible without development. But both are not possible without respect 
for human rights and, I would add, the full participation of women. In 
order to promote democracy and human rights in a society the people who 
believe in democracy and human rights defenders should be supported 
politically and morally. Without democratic people and human rights 
defenders in the ground the goal will not be achievable.
    Finally, I would conclude that the only solution for the problem in 
Afghanistan would be the promotion of democracy and values of human 
rights and women's rights. The job in Afghanistan is not done. Short 
term fixes are not going to solve the problem. By joining our hands 
together, we will be able to complete the job must faster.
    Thank you very much.


    Senator Casey. Doctor, thank you very much, and you did it 
under the time limit. That doesn't happen too much around here. 
[Laughter]
    Thank you very much. We are honored by your presence here 
today.
    Ms. Reid. Thank you very much.

STATEMENT OF RACHEL REID, AFGHANISTAN RESEARCHER, HUMAN RIGHTS 
                    WATCH, KABU, AFGHANISTAN

    Ms. Reid. Thank you. Thank you very much, Senator Casey, 
thank you, Senator Boxer, for the invitation to testify at this 
important and timely hearing.
    I am very encouraged by your comments earlier, your clear 
commitment to women's rights in Afghanistan. I'm also very 
encouraged by the amendments to the stabilization plan, which 
came as a surprise today. And thank you again, to Senator Boxer 
and Ambassador Verveer, who I suspect played a big role in 
that.
    I have been living in Afghanistan for much of the last 3 
years. For the past year, my focus has been primarily on 
women's rights, including bringing out a report in December.
    For the past few weeks in Kabul, I've been speaking to 
women leaders and to some women in districts largely controlled 
by the Taliban, and to some former Taliban themselves about 
their hopes, their views, about reconciliation and 
reintegration. So that's primarily what I'll talk to out about 
today.
    I should start by stressing that, in my view, 
reconciliation and reintegration cannot work unless you have a 
credible, legitimate, and honest Afghan Government. And so, 
otherwise, we'll see deals, rather than reconciliation. We'll 
see the purchase of a temporary peace. We'll see corruption 
fueled and probably the empowerment of more local strongmen. 
So, before reintegration plans race ahead, which, to be honest, 
they seem to be doing, from my conversations in Kabul recently, 
the United States must keep its focus on improving the Afghan 
Government's record on rights, governance, and rule of law.
    And one more caveat about wishful thinking, which Dr. Samar 
touched on as well: U.S. officials in both State and Pentagon 
are attempting to assert that the majority of insurgents are 
not driven by ideological motivations, that it's about 
economics or local grievances. And while, clearly, many who 
choose to fight, do so for many reasons, some of them--many of 
them not theological, the extremist interpretation of Islam is 
integral to the identity of the Taliban.
    As a reminder of that, in recent weeks, I've been doing a 
series of interviews with women in districts under de facto 
Taliban or Islamist control. These are places where women saw 
brief freedoms after the fall of the Taliban. Many of them took 
up their jobs again as teachers or midwives. They sent their 
girls back to school. They talked about having hope again for 
their futures. Then the insurgency took hold, and in the last 
few years, the few new freedoms unraveled. Many of these women 
have had phone calls, threatening letters, visits from armed 
men to their homes, and they've been forced to give up their 
jobs. Elders in their communities have kept on telling them to 
take their daughters out of school and to stop working.
    So, I think we need a bit more honesty about the potential 
risks of deals with the Taliban.
    Obviously, all of the women I'm talking to want peace. 
Women pay a heavy price for this conflict, but it doesn't have 
to be peace at any price. Women don't want their constitutional 
rights abandoned. They want their basic freedom to go to 
school, to work, to have access to health care, and to 
participate in political life. They also want much more 
transparency about the reconciliation and reintegration process 
that's happening now, and they want inclusion at all levels, 
whether it be the village level shuras that are already taking 
place, the national policy formulation that's happening now, 
the peace Jirga that we're expecting soon. And this needs to be 
representation that they recognize as representing their views, 
rather than token Karzai loyalists, which we've seen happen in 
the past.
    So, I would ask you to ask the Afghan and United States 
Governments what they're doing to ensure that women are being 
consulted and included in the policy formulation that's taking 
place right now in Kabul and in Washington, DC.
    Another area where the United States can offer very 
meaningful assistance is in support for women in public life. 
As Ambassador Verveer mentioned, there was a very negative 
development just last week, when the President changed the 
electoral law by decree, and we believe that these changes are 
likely to reduce the number of women in Parliament already. 
Women parliamentarians, councilors, human rights activists face 
constant threats and intimidation. There have been several 
high-profile women murdered in recent years, and nothing has 
been to bring their killers to justice.
    So, again I would urge you to write to the Afghan 
Government and ask them why nothing has happened about the 
killing of Sitara Achakzai, of Malalai Kakar, of Zakia Zaki.
    The broader picture of violence against women is more of 
what we've already been hearing today, and there was this one 
bright spot that was the law passed by decree last summer on 
the Elimination of Violence Against Women. The law is not 
perfect, but it does make rape a crime for the first time. So, 
clearly, hugely significant.
    The role of the U.S. military--and, Senator Casey, you 
touched on this--in terms of training the police force, 
particularly at this escalated speed, it's already skewed to 
paramilitary-style training. I fear that as this escalation in 
the speed of training carries on, that will be worse, and 
basically there will no rule of law unless the police force 
knows the law, including these new laws that are designed to 
protect women.
    So, now would be a good time to evaluate and modify the 
current police training to ensure that it is actually putting 
the protection of women and girls at its heart.
    One last issue of concern that I'll mention: This year an 
amnesty law was brought into force that gives a blanket pardon 
to past or present combatants who agree to reconcile. This 
gives a carte blanche to the government, basically, to bring 
anyone back into the fold, no matter what crimes they've 
committed. At a time when the United States and other 
governments are pressing the Afghan Government to try and 
improve its legitimacy, bringing more war criminals into 
government is a backward step. The government is meant to be 
trying to establish more rule of law, while at the same time 
sending this message that the worst crimes, including very 
serious crimes against women, will not be punished by the 
state.
    So, please ask the Afghan and United States Governments to 
exclude war criminals from reconciliation and to ensure that 
serious human rights violators are brought to justice.
    In conclusion, Afghan women and girls remember very well 
the promises made by your country when the United States--when 
it ousted the Taliban from power back in 2001 and will be 
looking to you to ensure that their rights are not traded away, 
even as the United States reduces its troop commitments in 
coming years.
    The Afghan Government clearly bears responsibility here, 
but let's be frank: In terms of reintegration and 
reconciliation, this administration will have much more 
influence than any Afghan woman, perhaps with the exception of 
Dr. Samar. [Laughter]
    And so, you can help ensure that women are included in 
these processes. You can help ensure that serious rights 
violators are excluded, and that the fundamental freedom of 
women that's enshrined in their constitution are not 
sacrificed.
    Thanks for listening. I look forward to your questions.
    [The prepared statement of Ms. Reid follows:]


                   Prepared Statement of Rachel Reid

    Thank you, Senator Boxer and Senator Casey, for the invitation to 
testify at this important and timely hearing.
    I have been working on Afghanistan since 2006, and living there for 
most of the last three years. For the past year much of my focus has 
been on women's rights--including authoring a report, ``We Have the 
Promises of the World: Women's Rights in Afghanistan,'' published in 
December 2009. The report details emblematic cases of ongoing rights' 
violations in five areas-attacks on women in public life; violence 
against women; child and forced marriage; access to justice; and girls' 
access to secondary education. I've just flown in from Kabul, where for 
the past few weeks I've been asking women leaders about the prospect of 
the Taliban's reintegration and reconciliation with the government. 
Most women I've spoken to say they want:


   Peace with justice,

   Transparency and inclusion, and

   No illusions about ``moderate Taliban.''


    The last eight years have seen much progress for women and girls in 
Afghanistan. Thanks to a constitutional guarantee of women's political 
participation, a quarter of the parliament is female. There have been 
real gains in education, with more than 2 million girls in school, 
though only 4 percent of secondary school age girls reach grade 10. The 
U.S. Government has provided essential assistance in key areas of 
women's development and empowerment, including more than $150 million 
allocated for Afghan women and girls this year. The support from 
Secretary of State Hillary Clinton at January's London conference was 
much needed and welcomed by the women leaders who participated. The 
efforts of the ambassador-at-large of the Office of Global Women's 
Issues, Melanne Verveer, and individual members of Congress, such as 
Senator Boxer, who have gone to great lengths to promote Afghan women's 
rights, have been critical.
    Afghanistan's women leaders and human rights defenders are 
themselves the greatest hope for women and girls in Afghanistan. I have 
had the privilege to work closely with many impressive women who work 
fearlessly to continue to try to push the boundaries and achieve 
greater rights and freedoms.
    Unfortunately, the trend for women's rights is now negative in many 
areas. While the oppression of women and girls under the Taliban was 
cited as a justification for the 2001 invasion, the Afghan government 
and its international backers have not always treated women's rights as 
a high priority. Recent years have been marked by a number of 
disturbing developments, such as the passage of the Shia Personal 
Status Law in 2009 with the support of parliament and President Hamid 
Karzai, unpunished assassinations of women leaders, and the 
consolidation of power by fundamentalist factions in government, 
parliament, and the courts. This month President Karzai sought to issue 
a decree that would have decreased the number of reserved seats for 
women in parliament--just the latest in a series of worrying moves by 
President Karzai to prioritize the demands of conservative factions at 
the expense of women (at the time of writing the decree's final wording 
was still unclear). Sadly, it is no longer clear what commitment 
President Karzai has to women's rights.
    The Afghan government, often with the support of the Bush 
administration, has empowered current and former warlords, providing 
official positions to some and impunity to the rest. Backroom deals 
with extremist and abusive commanders profoundly undermine the rights 
and security of Afghan women. As political power has gradually 
coalesced around former warlords and hardliners, women have been 
further marginalized, with those who speak up for their rights--
including women members of Parliament--coming under threat. This threat 
may increase if women articulate their fears about the political re-
emergence of the Taliban, whose leaders are accustomed to threatening 
and killing those who criticize or oppose them. We are deeply concerned 
that, with discussions of some form of political settlement with the 
Taliban and other insurgent groups now part of the strategy of the 
government and NATO, further backroom deals will be made, rather than 
an inclusive reconciliation process. If this is the case then the risk 
of further compromise of women's rights seems high.
    It is important not to engage in wishful thinking. U.S. military 
and civilian officials are now keen to stress what is portrayed as the 
non-ideological nature of large numbers of Taliban fighters and other 
insurgents and are minimizing the differences in world views. This is 
being done to create the political space for deals and reintegration to 
be more palatable to their domestic audiences. Emphasis is placed on 
economic incentives for insurgents, and on reference to the so called 
``moderate'' or ``pragmatic'' Taliban. While poverty and local 
grievances are clearly factors in the insurgency, this perspective 
tends to disregard the long history of misogyny within the Taliban and 
the serious abuses that women are suffering today at the hands of 
insurgent groups. There may be many insurgent commanders who are not 
ideologically committed to the subjugation of women and could accept 
the Afghan constitution, but it is important not to overstate the size 
of this group or to understate the threat facing women should those 
committed to extremist ideologies be given power at the local, 
provincial or national levels.
    The role of the United States in helping to ensure the long-term 
promotion and protection of women's rights in Afghanistan is crucial. 
The gains made over the past eight years are being threatened daily. 
U.S. development and military assistance, political support, and 
reintegration and reconciliation efforts all need to be conducted 
giving full consideration to their impact on the women and girls of 
Afghanistan.
    The legacy of almost a decade of U.S. involvement in Afghanistan 
should not be the restoration of rights-abusing extremist groups. It is 
not only the women and girls of Afghanistan who expect support from the 
U.S. The reaction of the U.S. public and the international media to the 
Taliban-style Shia Personal Status law in 2009 showed the deep empathy 
that still exists in the United States and around the world for Afghan 
women and girls.
            reintegration, reconciliation and women's rights
    Human Rights Watch and partners have conducted a series of 
interviews in Kabul and in districts where insurgents groups are strong 
in recent weeks, asking women about their hopes and fears for 
reintegration and reconciliation. Most women living in areas where 
insurgent groups have become more powerful over the last two or three 
years say they have seen the brief freedom they enjoyed after the fall 
of the Taliban disappear. Many have been told to stop working through 
phone calls, received threatening ``night letters'' (written messages 
left overnight), or been intimidated by aggressive groups of armed men. 
Communities have been warned not to allow girls to go to school. Women 
have also told us that elders come under pressure from insurgent groups 
to enforce their demands to restrict freedom of movement and the right 
to work. Policy makers should have a proactive strategy to deal with 
this pattern of intimidation and abuse of women and girls as they work 
to achieve reintegration and reconciliation.
    I have also recently discussed these issues with two former Talibs, 
including Mullah Abdul Salam Zaeef, a founding member of the Taliban 
movement and the former ambassador to Pakistan. Both echoed the claims 
of the Taliban government while it was in power that restrictions on 
women, including the closing down of girls schools, were merely due to 
lack of resources. Mullah Zaeef said that the freedom to work and study 
that women had enjoyed in recent years (specifically in mixed offices 
and classrooms) had resulted in their ``moral corruption.''
    Unsurprisingly, all of the women we interviewed say they want 
peace: women are paying a heavy price in the current conflict. But all 
are concerned about the potential consequences of deals with insurgents 
for their basic rights--even those who are barely able to exercise 
these rights today. Most women describe what could be considered ``non-
negotiables.'' These include:



   Access to education,

   Access to health care,

   Freedom to work,

   Freedom to participate in political life, and

   Maintaining the constitutional protection of these rights.


    Many of the women expressed frustration that there is little 
transparency about the government's reintegration and reconciliation 
plans. They are well aware that initiatives and policies are currently 
being drawn up that will have enormous impact on them, but they have 
not been kept informed, let alone consulted. Women want to be included 
in a serious manner while they still have a chance to make 
recommendations and influence decisions. They also want to be 
represented in large numbers if a peace jirga takes place by women who 
will advocate their views and rights--not by what they fear may be 
compliant and token delegates.
    In response to the London Communique, a group of women leaders drew 
up their own list of demands.\1\ We urge the U.S. to support their 
recommendations (which we endorse). The following recommendations are 
largely drawn from their demands:
---------------------------------------------------------------------------
    \1\  These can be found at http://
peacewithjustice4afghanistan.blogspot.com/2010/02/kabul-press-
conference-reactions-from.html


   Prioritizing women's inclusion at every stage of planning for 
---------------------------------------------------------------------------
        reintegration and reconciliation.

   Prioritizing women's inclusion in decision making bodies.

   Ensuring that women who participate in decision making bodies and 
        the peace jirga are representative of women civil society 
        activists (ideally they should be nominated by the Afghan 
        Women's Network and Afghanistan Independent Human Rights 
        Commission).

   Ensuring that those who broker deals do so in a transparent and 
        inclusive way.

   Ensuring that the government of Afghanistan offers guarantees of 
        women's constitutional rights, including basic freedoms such as 
        access to education, right to work, access to health, access to 
        justice, freedom of speech and freedom of movement.

   Ensuring that a proportion of the financial incentives to 
        communities to support reintegration should be used to support 
        women's empowerment and development.

   Ensuring that mechanisms are in place to protect the rights of 
        women and girls in reintegration and reconciliation plans 
        through rigorous monitoring and mechanisms of redress.

   Devoting a significant proportion of international donor assistance 
        (including funds going through the Afghanistan Reconstruction 
        Trust Fund) to women's needs in the areas of reconstruction, 
        rule of law, and access to formal justice.

                     traditional dispute resolution
    Part of the reintegration package being considered involves efforts 
to strengthen or create traditional dispute resolution mechanisms. 
While in the abstract this sounds sensible in a country where the court 
system is hardly functional and does not reach isolated areas, 
traditional dispute resolution can be very dangerous for women. It is 
already widely practiced and routinely involves ``settlements'' harmful 
to women, including the use of baad (providing women or girls as 
compensation for a crime or civil dispute, including in rape cases) and 
honor killings. The Ministry of Women's Affairs, the Afghanistan 
Independent Human Rights Commission, and the Afghan Women's Network 
have all expressed strong concerns about measures that might bring 
added legitimacy to these customary practices. Their intervention has 
resulted in significant improvements in the new policy guidelines on 
paper, but they maintain valid fears about their practical 
implementation, particularly at the village level and in more 
conservative areas of the country.
    Support for this initiative from the United States appears to be 
driven by counter-insurgency objectives, to address concerns among 
Afghans that the court system is too corrupt or weak or absent in rural 
areas to address or resolve disputes. This has been exploited by the 
Taliban, which in some areas has been quick to provide forms of dispute 
resolution through its own processes. Yet informal justice initiatives 
are unlikely to make the protection of women's rights a priority while 
the motivation for these initiatives is counter-insurgency rather than 
justice and rights.
    We urge that the U.S. insist that any policies or programs on 
traditional dispute resolution:


   Make the protection of women's rights a principal objective, not to 
        be traded to obtain other goals.

   Help ensure that women's constitutional rights are protected in any 
        judicial or dispute resolution system.

   Ensure that baad and honor killings are never used in criminal or 
        civil cases and that those who continue to engage in these 
        practices are prosecuted.

   Do not result in resources being diverted away from strengthening 
        the formal justice system, particularly at local levels, and 
        women's access to justice through the courts.

                    attacks on women in public life
    One of the great advances since 2001 is the possibility for Afghan 
women to be active in politics, government, civil society and other 
spheres of public life. Yet women in public life are subject to routine 
threats and intimidation. Several high-profile women have been 
assassinated in recent years, and their killers have not been brought 
to justice. Women in insurgent-controlled areas are often threatened 
and intimidated into retreating to their homes. Every time a woman in 
public life is killed, her death has a multiplier effect, as women in 
her region or profession will think twice about their public 
activities.
    Women in parliament and on provincial councils face challenges that 
their male counterparts do not, and require specific training, support 
and protection. Without a strong platform in government and society 
from which to lobby for their rights, women's advancement in 
Afghanistan will grind to a halt. We urge the United States to:


   Press the Afghan government to investigate and prosecute attacks on 
        women in public life.

   Encourage President Karzai to maintain the reservation of 25 
        percent of seats for women in parliament and extend this to all 
        sub national forms of government.

   Work towards the implementation of the demand from women leaders at 
        the London conference that women be allocated 25 percent of 
        positions in all government bodies, particularly in decision-
        making positions, the peace jirga, and civil service, including 
        senior positions in the civil service.

   Work with the government to provide protection for women facing 
        personal threats.

   Develop specific training programs on law, rights and governance 
        for women in parliament, provincial councils, and all sub 
        national forms of government.

   Support programs of gender awareness for men at all levels public 
        life to discourage discrimination and an atmosphere of 
        hostility and intimidation.


                         violence against women
    Violence against women in Afghanistan is endemic. A nationwide 
survey by Global Rights of 4,700 women, published in 2008, found that 
87.2 percent had experienced at least one form of physical, sexual, or 
psychological violence or forced marriage in their lifetimes. The 
Elimination of Violence Against Women (EVAW) law, which came into force 
in July 2009, was a notable achievement on the part of women's rights 
defenders, despite weaknesses in the law. The law strengthens sanctions 
against various forms of violence against women; including making rape 
a crime for the first time under Afghan law. Because it was passed by 
decree, it can be amended by parliament, where powerful conservative 
factions are trying to weaken it. President Karzai and the 
international community should act to ensure this does not happen.
    The support of the U.S. Government in working with the legal 
department of the Ministry of Women's Affairs and the Ministry of 
Justice is appreciated by women activists, as are commitments to expand 
short training programs on gender awareness and the mentoring and 
training for Family Response Units. However, there are concerns that 
additional pressure this year to rapidly expand the Afghan police and 
army will result in the continued prioritization of counter-insurgency 
capacity, and the reduction of training time, which may result in the 
further reduction of training components that deal with women's rights 
and human rights, as well as basic law enforcement duties.
    To address violence against women, we urge the United States to:


   Press the Afghan government to vigorously investigate and prosecute 
        all crimes of violence against women, including sexual 
        violence.

   Work with the government to implement a nationwide and sustained 
        campaign to ensure that rape is understood to be a criminal 
        offense by law enforcement agencies, judges, parliament, civil 
        servants, and the Afghan public. The campaign should also aim 
        to reduce the stigmatization of victims of rape.

   Ensure that expansion of the Afghan National Army and the Afghan 
        National Police is accompanied by efforts to ensure the 
        security forces have the protection of women as one of their 
        main functions.

   Provide long-term support to the government to embark on a training 
        program for prosecutors, police, and judges to ensure that the 
        Elimination of Violence Against Women law is implemented.

                       justice and accountability
    Human Rights Watch is deeply troubled by the recent discovery that 
the Afghan government secretly gazetted the controversial amnesty law, 
the National Stability and Reconciliation Law, that had been passed in 
2007 but never made official. This law was pushed through parliament by 
warlords and their supporters to give them immunity for human rights 
abuses, including war crimes and crimes against humanity, committed 
over the long period of armed conflict in Afghanistan. In response to 
international outrage, including by the U.S. Government, President 
Karzai had privately reassured the Afghanistan Independent Human Rights 
Commission and civil society groups in 2007 that he would not sign the 
law.
    This law is deeply offensive to Afghans, and in contravention of 
international human rights and humanitarian law. A major opinion survey 
by the Afghanistan Independent Human Rights Commission found widespread 
support for bringing those responsible for serious past crimes to 
justice.
    Women have played a leading role in the emerging victims groups 
demanding accountability for past crimes. Many of the women leaders we 
have interviewed have expressed deep concerns about the amnesty law. 
Its revival at this time is seen by some as connected to the current 
moves towards reintegration and reconciliation.
    The amnesty law abdicates the responsibility of the state to 
investigate and prosecute past crimes. Defenders of the law say it 
still allows individuals to seek prosecutions on their own. But this is 
an unreasonable and likely impossible burden--few Afghans are going to 
take the risk of standing up alone to a warlord or other powerful 
abuser. To place such a burden on women who have been victims of sexual 
violence as a weapon of war is particularly egregious and insulting.
    It should be the policy of the U.S. Government to work for the 
repeal of this law. It has been a great disappointment to Human Rights 
Watch and Afghan activists that the Obama administration and other key 
actors in the international community have failed to react more 
strongly. It is our understanding that the U.S. is satisfied with the 
provision allowing individuals to bring claims, despite the 
impracticality of the provision, and the abdication of state 
responsibility.
    Afghanistan has an international legal obligation to investigate 
and prosecute as appropriate those who have committed serious 
violations of human rights, war crimes and crimes against humanity. The 
United States should press hard with Afghanistan's other supporters to 
see that this obligation is met.
    But this isn't just a moral and legal issue; there are strong 
pragmatic arguments against betraying the victims of these crimes. 
Accountability for serious human rights abuses is an important part of 
a sustainable peace process. The alternative--peace without justice or 
accountability--is at best likely to result only in temporary calm. The 
fact that there are already many human rights abusers in government 
should not be used as an excuse to introduce more, but it frequently 
is. At a time when the U.S. and other allies of the Afghan government 
are trying to exert pressure on the government to increase its 
legitimacy in the eyes of its citizens, further appeasement of people 
who large numbers of Afghans see as war criminals would be a major step 
backwards.
    We urge the U.S. to:


   Press the Afghan government to repeal the amnesty law and to take 
        steps to uphold its obligation to investigate and prosecute as 
        appropriate serious human rights violations, war crimes, and 
        crimes against humanity, including deliberate and 
        indiscriminate attacks on civilians, unlawful killings, 
        enforced disappearances, and rape and other sexual violence.

   Make clear that accountability is integral to the reintegration and 
        reconciliation process and that serious human rights abusers 
        should be excluded from amnesties provided through this 
        process.

                               conclusion
    As the United States increases its troop commitments and political 
engagement in Afghanistan, it is important to recognize that the threat 
to women's rights comes from the Afghan government as well as former 
warlords, the Taliban, and other armed groups. Too often, politics 
trumps justice when women's rights are at stake. President Karzai's 
efforts to reach out to Taliban leaders cannot be an excuse to appease 
fundamentalist demands to oppress women.
    Afghan women were deeply disappointed that President Obama's 
December 2009 speech outlining a new U.S. strategy for Afghanistan did 
not mention women. Similarly, women and girls were largely missing from 
the Afghanistan and Pakistan Stabilization Strategy released by the 
Office of the Special Representative for Afghanistan and Pakistan in 
January 2010. Women were also an afterthought at January's London 
conference, though thanks to the tenacity of Afghan women and the 
support of Secretary of State Clinton they were able to have their 
voices heard.
    Despite the talk of Afghan leadership in the reintegration and 
reconciliation process, the reality is that the U.S. will play a 
serious and potentially decisive role in its outcome. Consequently, 
Afghan women and girls, who have not forgotten the promises made by the 
U.S. Government when it ousted the Taliban in 2001, will look to the 
U.S. to ensure that their rights and freedoms are not traded away as 
the U.S. seeks to reduce its troop commitments in Afghanistan. The U.S. 
should not only help to create space for women to raise their concerns, 
but also articulate where the red lines must be drawn: serious human 
rights violators should not be put into positions of power, and the 
fundamental freedoms enshrined in the Afghan constitution should not be 
sacrificed.
    Without pressure on President Karzai and a commitment from the U.S. 
and international community to respect the basic rights of women and 
girls, the hard-won freedoms of the last few years can be quickly 
unraveled. The trend is already negative. Afghan women will continue to 
fight to defend their freedoms, but President Obama and the U.S. can do 
much more to let them know through words and deeds that the United 
States will support them rather than abandon them in a scramble for 
deal-making. Women's rights must at all times be central to U.S. 
policies and goals in Afghanistan.


    Senator Casey. Well, thank you very much, Ms. Reid. You're 
under your time, too. So, we're going to invite both of you 
back, for many reasons.
    I know that Senator Boxer may have to leave, and I wanted 
to have her take the first round of questions.
    Senator Boxer. Thank you so much, Senator. Both of you are 
just so important to us as our eyes and ears and, I know, to 
the Ambassador and the Director as well.
    Colleagues, we just can't--``colleague.'' [Laughter]
    We can't lose this moment because this is really a critical 
moment. We've got a military campaign going on against the 
Taliban, and we all want it to succeed. And after this military 
campaign--and we hope it ends soon--comes reconciliation. And 
now is the time that we have to, it seems to me, put the 
pressure on all sides that there can't be reconciliation unless 
there's certain changes in the treatment of women.
    And what I'd like to do with you both right now--because 
I've taken this straight out of Ms. Reid's testimony--is go 
through where I see the possibilities arise and what we should 
support, but I need to know if this is right.
    I think the first thing that goes along with reconciliation 
is an end of violence against women in Afghanistan and that 
there must be a proven commitment that the Violence Against 
Women Law will be passed by the Parliament. Right now, it's my 
understanding that it's just been a decree, but that it will in 
fact be enforced. That's number one.
    No. 2--and this I take straight from your testimony, Ms. 
Reid, so I want to make sure I don't leave anything out. And, 
Dr. Samar, I'm very interested in your opinion. It seems to me 
that the first thing we should support is freedom from 
violence. Also, access to education, access to health care, 
freedom to work, freedom to participate in political life, and 
maintaining the constitutional protections of these rights.
    I'd like to know if this list is complete, or if we have 
left anything out. Because what I would like to see us do--and 
I really think Senator Wicker may be very interested in working 
with us on this--is be very clear and simple and just let our 
administration know what has to happen. I know Ambassador 
Verveer is right in there with Secretary Clinton, and Secretary 
Clinton's voice is going to be so crucial here. This is the 
moment. If this moment passes, we're back where we started, and 
that's disastrous.
    So, have I left anything out, or could we say it, Dr. 
Samar, in a more artful way? Is this list complete, or is there 
something else we need to add to it?
    Dr. Samar. Thank you, Senator. I think what is important is 
to recognize the women in Afghanistan, that we are existing and 
we are there, and we are able to think and we are able to feel.
    Senator Boxer. Recognize more equality of women--Afghan?
    Dr. Samar. Recognize not only the equality, the existence, 
because with the whole process of reintegration and 
reconciliation, there were no consultations with any woman in 
the country. They even tried to keep it for themselves, not 
really sharing it with us, under which mechanism they want to 
reconcile.
    Senator Boxer. So, let me just restate it in sort of our 
way of talking here, and tell me if this is right: to ensure 
that women are involved in every part of the reconciliation 
process.
    Dr. Samar. Absolutely.
    Senator Boxer. OK, that's No. 1. OK.
    Dr. Samar. And then, of course, recognition in including 
the women.
    Senator Boxer. Yes, that's what I said. Including them in 
every part of the reconciliation process.
    Dr. Samar. And it should be----
    Senator Boxer. Of the decisionmaking.
    Dr. Samar. Yes. It should be transparent, that we----
    Senator Boxer. Yes.
    Dr. Samar [continuing]. Have the support of the public.
    Senator Boxer. It could also be on C-SPAN.
    Dr. Samar. Yes. [Laughter]
    Senator Boxer. Oh, that's another debate. Sorry. [Laughter]
    Dr. Samar. It should be and----
    Senator Boxer. I hear it.
    Dr. Samar [continuing]. The people should understand 
because even today in Afghanistan, the people think that they 
want the Taliban to come and pay a bribe to them in order to 
lay down their guns. And this is lack of transparency.
    Senator Boxer. Yes.
    Dr. Samar. And third issue, I think, I insist--I think we 
all, the human rights defenders and women's rights are 
insisting that it should be a kind of accountability and 
justice because the people or the members of the Taliban who 
committed war crimes and crimes against humanity cannot just 
come and get another position in the government, as we have all 
that with us.
    So, there's no condition right now by the government on 
this issue. They only say that they accept the Constitution. 
They should accept the Constitution. It is not enough because 
under which mechanism they should accept the Constitution and 
who is going to observe and guarantee that they will accept and 
respect the Constitution?
    Senator Boxer. OK. Do you agree with the access to 
education for women, access to health care, freedom to work, 
freedom to participate in political life? And this seems to be 
what the women have told the human rights campaign people.
    Dr. Samar. Yes----
    Senator Boxer. I mean, not human rights campaign; Human 
Rights Watch. Sorry.
    Dr. Samar. Yes. I think access to education is very 
important, and we have to pay more attention on higher 
education in order to give them capacity to be in the decision-
making level. And every level education is needed in the 
country in order to build the confidence for them to take part 
in different sectors of the social life.
    The second thing, I think, would be access to health care 
and, especially, on reproductive health----
    Senator Boxer. Yes.
    Dr. Samar [continuing]. And their access to family 
planning, because if they have 10 children, they cannot really 
participate in politics or any other social activities. We do 
have some progress on health care, but it's not enough, 
specifically on family planning. They're not talking. They're 
so cautious on those issues.
    And, third, I think it should be more job opportunity and 
economical----
    Senator Boxer. Yes. Freedom to work?
    Dr. Samar. Yes.
    Senator Boxer [continuing]. And participate in political 
life?
    Dr. Samar. Participation in political life and 
decisionmaking level is very, very important because we should 
not only have women as a token in some places.
    Senator Boxer. Yes.
    Dr. Samar. It should be women who are really qualified and 
who stand for women's rights. Where we have some woman who 
doesn't really talk about women's rights as far as they have 
the position.
    Senator Boxer. Anything else, Ms. Reid?
    Ms. Reid. Sure, I would agree with everything that Dr. 
Samar has just said, obviously. I think we have to be skeptical 
about the degree to which President Karzai is himself committed 
to women's rights. We've seen several pretty negative 
indicators for all the assurances he'll give to Western 
audiences. For instance, the Shia personal status law that he 
signed, the freeing of a couple of gang rapists in exchange 
for, you know, political alliances he was trying to build, and, 
of course, his increasing reliance on fellow warlords and 
fairly fundamentalist factions in government. So, all of these 
are very negative indicators that I think we have to keep--we 
have to sort of bear in mind. And the more he's now reaching 
out to Mullah Omar and these even more fundamentalist factions, 
the less likely he's going to be a real advocate for women's 
rights, which is why the United States can play such a vital 
role at the moment.
    I would also say that there's many forms of reintegration 
and reconciliation around the world. It doesn't necessarily 
have to equate to handing over political power to these 
factions. So, some scrutiny now at this stage as to how much 
political power will be granted to these former insurgents 
would be useful.
    And, as Dr. Samar says, inclusion is vital as is 
transparency and accountability in the processes. The issue of 
freedom of movement is really important. I did, as I mentioned, 
a couple of interviews with some former Talibs, including 
Mullah Zaeef, the former Ambassador to Pakistan, and both of 
them repeated the same claims that the Taliban made while they 
were in power, that the only reason they weren't allowing girls 
to go to school or to work was lack of resources at the time, 
which is clearly disingenuous then and now.
    So, I think that's the sort of thing we need to be bearing 
in mind. Mullah Zaeef talked about the problem with these 
freedoms for women being basically that they were being morally 
corrupted by mixed schools or offices. And this is the 
viewpoint, the world view, that we need to really bear in mind. 
And that's why we have hindrances to women's access to 
education and health care and workplaces.
    So, we need really firm commitments from the government, 
and we need to have women involved in key decisionmaking policy 
boards that are being formed now.
    Senator Boxer. Well, if I could just close with this, 
Senator. I hope--I think that Senator Casey and I--and we're 
hoping Senator Wicker--can team up. Let's get something going, 
a push here, because this is the moment. We all strongly hope 
that the military campaign is going to go in the favor of the 
coalition forces and what we're saying is let the Afghan 
Government know that women in Afghanistan cannot be used as a 
bargaining chip in this reconciliation process, and they can't 
be used and they can't be thrown overboard in this 
reconciliation process because that would be, well, immoral, 
for starters, and totally counterproductive. Because, as we 
have said over and over again, all of us, you cannot have a 
successful Afghanistan if half the people are frightened and 
they're sitting home and the windows are painted dark because 
no one can look in on them. You can't have a successful country 
where half the people are suffering in the shadows and are 
forced to get married and are treated in this fashion.
    So, I think this is the moment, and this hearing didn't 
come a moment too soon. I just think this is the time. So, 
because I need to go to another meeting, what I wanted to say 
to all of you is that I intend to work with Senator Casey and 
other Senators on both sides of the aisle and move quickly on 
this because Dr. Samar, you came a long way to give us this 
message, and even though you don't tend to be dramatic; you're 
just very forceful and straightforward--I hear what you're 
saying.
    I mean, what you essentially said is hold these people 
accountable for what they've done, and you wouldn't say that if 
they weren't guilty of doing a whole lot of horrible things to 
the women of your country. You're saying hold them accountable 
for their past actions, be transparent, and make sure that we 
don't just lose this opportunity.
    Did you want to say something else?
    Ms. Reid. Could I? Yes, I'd love to.
    Senator Boxer. OK.
    Ms. Reid. I have just one more thing, which is about access 
to justice. It's partly because one of the policies that 
everyone has been excited about for the last 6 months, from the 
international community side, is involvement with so-called 
traditional dispute resolution, which is village Jirgas, 
essentially. And part of the view is that, from the 
counterinsurgency perspective, the Taliban are stepping into a 
justice vacuum. So, they want to get involved. The risk is that 
what they'll end up doing is strengthening or legitimizing a 
form of justice that's very harmful to women, that uses 
practices such as ``bad,'' where women are given as 
compensation for crimes, and honor killings.
    Partly because of the work that Dr. Samar has done and the 
Ministry of Women's Affairs has done, the language on paper in 
Kabul has got much better on these justice guidelines, which 
is, you know, encouraging, but, frankly, at the village level 
what it means in practice remains to be seen. I think it needs 
to be extremely closely monitored to ensure that we're not 
actually pushing further away the day when these traditional 
customary laws, which are so harmful to women, are replaced by 
formal court systems, where the women are more likely to see 
justice.
    Senator Boxer. Thank you so much, and to you both, you're 
courageous; you're brave; you're direct; you're helpful to us. 
And I just say to you, keep it up and Godspeed to both of you 
because you really are doing incredible work for people who 
need your help.
    Thank you very much.
    Ms. Reid. Thank you, Senator.
    Senator Casey. Well, thank you very much. I want to thank 
Senator Boxer for her work and her leadership as chairing more 
than one committee and several subcommittees. You can see why 
she's attained the title of Chair.
    I wanted to--some of this--some of my questions will be by 
way of reiteration or a different--maybe a different emphasis 
on parts of the questions that have already been asked, but the 
first thing I wanted to ask, I guess, Doctor, you have traveled 
a long way, and you have demonstrated extraordinary courage and 
ability over so many years, and you've been an example for so 
many of us who are just beginning to fully understand some of 
these challenges as they relate to women and girls in 
Afghanistan, as well as other places in the world.
    But I want to ask you a fundamental question. You gave us 
nine recommendations, and I'll ask a few questions about those, 
but just in particular, if there was something that the United 
States could do in the next, say, 6 months, even the next 3 
months, whether it's actions that we can take in the Senate--
and Senator Boxer and I have already discussed some of those; 
we'll be working together on that--but something that the 
Congress could do or the administration, as you know better 
than I, the good work that's being done by Secretary of State 
Clinton and Ambassador Verveer and USAID and so many other 
parts of our government have been doing for years, but even 
more so, I think, in the last year. In addition to all of 
that--and there--we should recognize the progress that has been 
made without overemphasizing or dramatizing it--in the next 
couple of months, if there was an action that our government 
could take, either at the--by the executive branch, the 
President and Secretary of State, or, maybe more pertinent to 
this hearing, what Congress could do, are there one or two 
steps you would hope that we would take in the next could of 
months?
    Dr. Samar. Well, I think because we might have a 
parliamentary election in September, one of the things that 
your government can do is try to push for fairness and openness 
and a credible election. And, of course, the full participation 
of women and the rule of law in the election, because people 
should not be allowed to use a woman's name and vote on behalf 
of the woman, for two reasons: One, I think they are just 
violating the rights of the woman to vote. Second, there's a 
lot of possibility of fraud in the election, which has happened 
last year and we don't want to be repeated again in the coming 
election.
    Second, I think of course on the Election Complaint 
Commission, it was--before it was three foreigners, which was 
introduced by the U.N., and one from the Human Rights 
Commission and one from the Supreme Court. But in this current 
election law, it's not any foreigner, and not even the Human 
Rights Commission is a member of the Election Complaint 
Commission.
    But I think you should look at the mechanism, how to really 
look--overlook at least, or observe, that the Election 
Complaint Commission is really doing their job. And they should 
not violate the people's right to vote or to--promotion of 
democracy is one of the ways that it is really to participate 
in an election and to have a free and fair election.
    The second thing I insist that I think your government 
should really insist on is education, and especially education 
for women at every level, because it is a long-term solution, 
but this is the only tool, in my view, to change the mentality 
in the country. Education for women gives them more 
possibility, more opportunities, more confidence in themselves 
that they could come up with support, of course.
    Economic empowerment of women is important, but I think if 
they are educated, they can get to economic empowerment through 
the education, through the capacity that they have.
    This is the two things that I insist on.
    Senator Casey. Could I interrupt you for one second on the 
second part, the education part? It's obvious that progress has 
been over the last--at least the last decade. I was reading--I 
don't know if these numbers are accurate, but reading in the 
same article I referred to where it says--and I want to ask if 
you think this is accurate or even reasonably accurate: In 
2001, a million Afghan children were enrolled in school, all of 
them boys. The education of girls, of course, was banned. 
Today, approximately 7 million Afghan children attend school, 
of which 2.6 million, or roughly one-third, are girls.
    Does that sound reasonably accurate to you?
    Dr. Samar. Well, it's--to be honest, I don't think it's 
accurate because, if you look at Kandahar, for example, or 
Oruzgan--there should be 230 or 220 schools functioning in 
Oruzgan Province, but practically it's only 21 schools 
functional we have on the list of the Ministry of Education. 
And it's only one girls school.
    Senator Casey. One of 21, you said?
    Dr. Samar. Yes, in the center of the capital. So, it's 
very, very difficult to say that it's correct. Even if it's 
correct, still 40 percent of the children doesn't have access 
to education. Like in Kandahar--of course, in Kandahar, I think 
we have more than 300 some schools in the list of--it's a 
bigger province, but practically, it's not more than 50 of them 
are functional or open we have on the list. You know the 
corruption in the country. And they keep it on the list. They 
even get the salary of the teachers. And then somebody on the 
way is using that money.
    So, this is not going to help if we have really a high 
number on the list in our reports, but what is important is 
that in reality the children do have access to school. And 
then, what is the quality of education? How many trained 
teachers do we have? We had one case from Vorio [phonetic 
spelling] that there was a man with his brother in law--both of 
them had a shop in the center of the city, but one was the 
principal and the other one was a teacher, and they were 
getting salaries of seven teachers of the school district. The 
school was not existing. They were practically busy in their 
shops in the center of Vorio. So, it's a lot of those kinds of 
cases. It's very difficult to say that this number is accurate.
    Senator Casey. So, just in terms of the next couple of 
months, you would focus on the--basically on those two: the 
election and education?
    Dr. Samar. Well, I think not only on primary education, but 
higher education also is important because, for example, this 
year we had 100,000 students who graduated from 12th grade, and 
then all over the university, in higher education, including 
teacher trainings and some other institute like accountant and 
some other small things that we have. They can absorb about 
35,000 people. Not all the young boys and girls who graduate 
from 12th grade. We are not going--we cannot really build 
Afghanistan with 6-year educated students or even 12 years.
    Senator Casey. I wanted to ask you another question or two. 
I just wanted to move to Ms. Reid. I guess what hangs over--one 
of the things I think that kind of hangs over these questions 
of what happens to women and girls, what happens on education 
as well as the larger questions on what our path forward is 
going to be on security and governance--we keep coming back to 
President Karzai. At least I do. And I've said this in the 
hearing room here when Richard Holbrooke was here, and I've 
said it a number of times. I've had only two occasions to meet 
him, and I was hoping for more, especially in this past August 
and about 48 hours after his reelection. And I'm very concerned 
about the--what I perceive as a lack of progress on his part on 
all of these indicators, whether it's governance or 
anticorruption, the justice system, and, as we've been 
highlighting today, in particular, the commitment that he has--
and I hope it's a full commitment--to what happens to women and 
girls on a whole number of issues.
    But I guess I want to have you put on both your 
journalist's hat as well as the experience you've had dealing 
with--in observing and analyzing what the Afghan Government is 
doing, just your sense of I guess two things: One is--two 
questions: One is the commitment President Karzai has to these 
reforms as he has enunciated or pledged to make progress on as 
it relates to women and girls, No. 1. And, No. 2, your 
assessment of where we are. Have we made substantial progress 
in the last year or not? And just--both from the vantage point 
of what President Karzai is doing or will do.
    Ms. Reid. Well, I think one of the indicators in terms of 
President Karzai's commitment were the recent Cabinet 
appointments, and we saw several very conservative figures--we 
saw some--one fairly prominent figure who was very much 
associated with corruption in the past. So, this to me was a 
fairly negative indicator. And there are further appointments 
are still to come. And also what will need a lot of scrutiny 
are his subsequent nominations at the ministerial level, 
governors, district, and police chiefs.
    We've also seen mutterings about who he is trying to have 
as the real power beneath what's happening in Marjah, again 
another fairly corrupt figure. These are all really negative 
indicators still, which is why I think you have to be very 
skeptical about the degree of his commitment to the reforms 
that are taking place.
    Now, in terms of progress over the last year, as I say, I 
see various negative indicators. The elections were shambolic 
and, you know, a very clear indicator that there wasn't a 
commitment to reform. There was, as I say, the Shia personal 
status law, which is a very negative indicator about his 
commitments, particularly to Afghan women and girls.
    So, you were asking Dr. Samar about what the priorities are 
in the next couple of months. Certainly, I've already said my 
piece today on the need for inclusion for women and girls in 
reintegration and reconciliation. I would second Dr. Samar's 
points on the elections, and the United States has huge 
leverage here. You're going to be paying for a lot of this, and 
we're already seeing very negative signs about the degree to 
which there will be further loopholes for fraud. So, you know, 
I think some demands need to be made really early about--both 
on the anticorruption front, but also on women's participation, 
which plays a big role in the corruption. We saw the failure--
the spectacular failure to address the need for women in 
polling stations, which could have been predicted years ago. It 
wasn't dealt with until the last couple of weeks before the 
elections.
    Senator Casey. Can I stop you there, just for a second? 
What do you think has to happen there to rectify that? I guess 
it's both a security issue and a governance issue, but, in 
other words, how do we--for this upcoming election, what steps 
have to be taken to make sure that polling place, as it relates 
to women, problem is rectified?
    Ms. Reid. Well, you can make very clear some conditions to 
the independent electoral commission about what they need to 
do, which is really earlier recruitment of women to staff the 
polling stations, much earlier commitment to the security 
forces to ensure that both women candidates and voters are 
getting security. Security has to be given its grace and favor 
that runs along the patronage networks. So, women candidates 
are pretty low down the pecking order to get that security. 
There was a very last-minute attempt to address that in the 
last election. That could be dealt with much earlier. Sadly, 
women tend to be, you know, left at the bottom of the list in 
all of these discussions, and that includes discussions that 
ISAF and U.S.--the Pentagon are involved in as well. So, you 
know, they can be nudged as well to play their part.
    And also on the elections, ISAF really failed to do its 
part on the vetting front. There are--you know, it's a flawed 
mechanism, but there is a mechanism for vetting. And they could 
do much more at an earlier stage to ensure there is some 
vetting to it, to make sure that some of those with links to 
illegal armed groups are not able to stand for the elections 
this year.
    So, I mean, I'm happy to give you a long list of things 
that could be requested now of the election commission, but the 
pressure needs to be put on now, and there needs to be genuine 
conditionality attached, because I fear that actually in terms 
of the need for success stories for U.S. domestic audiences, 
the elections will be allowed to happen in any way, shape, or 
form because they just need to happen. They need to be seen to 
be happening. But it could even be worse than last year.
    Senator Casey. Well, one of the difficulties in terms of 
implementing policy here in Washington or at the federal level 
from the distance between here and Kabul or here and anywhere 
in Afghanistan is that the American people just went through a 
long chapter with Iraq, and one of the constant refrains we 
heard was we don't know how we're doing there, we don't have--
there's all kinds of metrics and measurements. And part of what 
we have to do is, I think, use this election season or upcoming 
season that use other indicators as well to have some way to 
measure, some way to demonstrate, not only to the American 
people but to the international community, that we take very 
seriously what's happening to women and girls and we can 
measure success or measure the lack of success. So, any help 
you can give us on those would be--I'd be grateful.
    I guess for both of you--either or both, if you want to 
comment on this--this police training question that I raised 
earlier in the first panel, I wanted to get your thoughts on 
that because, look, for as much as I and others have been 
critical of President Karzai, a couple of his ministers have 
received much higher marks than he has sometimes. Minister 
Atmar, that I met--and Senator Shaheen mentioned meeting him.
    I've met, and he came at least at that time, back in August 
2009, came with high marks in a broad way. I don't know if we 
have an assessment of how he's been doing lately with regard to 
police training and the recruitment of the police.
    What's your sense of that generally in terms of training 
police to be sensitive to and trained in violence against women 
issues, and specifically with regard to Minister Atmar's 
commitment, ability, and progress on that very specific issue 
of police training as it relates to women?
    You can be as direct as you want, or you cannot answer if 
you want.
    Dr. Samar. Well, he's very good to put a plan, and he's 
very good to speak very articulately, but what's happening is 
that, if we train the police, do we have a mechanism to 
evaluate their activities? And we train the police; why we do 
not able to build the trust and confidence of the public to the 
police? This is, I think, one of the important issues.
    The second thing is that I personally--or we on the Human 
Rights Commission, we are not happy with his community defense 
initiative, because it doesn't matter--we don't put a tribal 
militia name on it to make it another kind of auxiliary police 
or community defensive initiative, but it is a tribal militia. 
They're not really controlled. If the government or the 
Ministry of Interior is capable to control those people, why 
they're not integrating in the national police, rather than 
having the tribal people, giving them guns, and you cannot 
control them? They're the ones who usually take the gun and go 
and join the Taliban. They're the ones who facilitated Taliban 
and some of the suicide attacks to carry out in the different 
parts of the country.
    So, it is quite difficult to clearly assess, but the action 
of the police during the last election was not very good. 
Honestly. They were facilitating the fraud, rather than 
controlling.
    On the election, if I may say something----
    Senator Casey. Sure.
    Dr. Samar. I think we have to be strict by saying nobody 
can vote on behalf of another person, be it men or women.
    Senator Casey. Was that rampant in the last election?
    Dr. Samar. Oh, yes. I mean, there were less people, maybe a 
hundred people, but it was 600 ballot papers in the boxes. So, 
this should be clearly decided.
    And finally, I would say on the election that the 
international community and your government, particularly, is 
pertinent to that Afghan Government, and you have to be real 
strict because I believe the failure and success is shared. 
It's shared responsibility, and we have to be very, very 
serious on that issue.
    I am happy to say that, yes, we are supportive of the 
Afghanization of the whole program, but the election law does 
not guarantee. It's not going to build the confidence of the 
people to the institutions.
    And a final word, I would like to say that we are talking 
about good governance, but I believe that we have to focus on 
all the state institutions, not only on good governance, 
because if we have a bad Parliament who passed the amnesty law, 
how can the judiciary system work? If we have a good Parliament 
even passing good law, the only one is not yet passed by the 
Parliament, the Elimination of Violence Against Women Law, but 
if the judiciary is not a good judiciary system, they are not 
going to implement it. They are not going to make it reality. 
So, we have to focus on institution building in Afghanistan, 
not only on good governance.
    On security, when we talk about the ANA and ANP, but nobody 
talks about the intelligence. If we do not really train and 
build the capacity of the intelligence in the country, how 
police can act? And our intelligence service yet, they don't--
they did not make their law public to the--to any one of us, 
although he promised the High Commissioner for Human Rights 
that he is going to give a copy of the legislation of the whole 
institution, but nobody has seen it. He promised me that he 
will give a copy for my eyes, but he has not given it to us. 
So, we don't know what is the law and legislation, what is the 
rule. What is the term of reference that they are working 
under?
    So, these are issues that nobody really tackled on 
intelligence and building the capacity of the intelligence 
service in the country.
    Senator Casey. I wanted to ask you--and I know we have to 
wrap up soon, in the next few minutes--but one of the 
frustrations that we have around this town is we have hearings 
and we spotlight an issue, something as critical as what 
happens to women and girls in Afghanistan or in other countries 
around the world, and then, unless we get back to it 6 months 
later or a year from now, we don't--there's not enough 
accountability or monitoring for what we have examined, even 
something this grave and this serious.
    I guess I'd ask you--and maybe there's not a good answer to 
this or maybe you have one you could point to, a resource--but 
just to keep track of and measure the progress that we're 
making, that the Afghan government is making, just on this 
specific issue, not security overall--we're going to have 
benchmark reports and all of that, and they're important--but 
how do we measure success or how do we measure progress on 
these issues in the next 6 months, the next year, the next 2 
years? Is there a set of questions that we can put on paper or 
a set of benchmarks or indicators? How many schools that girls 
are able to attend is one kind of measure.
    But some of the measures won't be that quantifiable or 
specific. What can we do about that? Or is there--do you think 
there is a measuring--a resource that we can use as a measure?
    Dr. Samar. I think one simple measure on accountability and 
justice, we can look clearly at how many people who are 
involved in opium and narcotics and also in corruption have 
been detained or arrested. This is very simple. We are all 
talking about corruption, corruption, corruption, but who has 
been kept accountable? This is very simple. We could see in 3 
months that maybe who and who or this minister or this deputy 
minister or this chief of police has been kept accountable--or 
a judge. When we hear about this kind of news, we raise a lot 
of concern, and then they just remove that person from this 
province and put in another province, or sometimes they get a 
higher position. So, that's clear. It's very simple: how many 
people have been detained or kept accountable.
    Thank you very much.
    Senator Casey. Thank you.
    Ms. Reid. I would second that and say that it's also--there 
hasn't been any accountability for those in--those senior 
positions of power who have been accused of war crimes. So far, 
there's been none. We may be about to see that worsen, as I 
say, with this amnesty law. And I would also mention that, back 
in 2007, when this law was first drafted and passed by 
Parliament--it has only just come into force--but back in 2007, 
the United States and many countries in the international 
community spoke out very strongly against it. But in this 
current climate, moving towards reconciliation and 
reintegration, there's been almost silence on it, which is a 
bad sign.
    Another measurable, I would say, is how many women are you 
seeing in positions in public life, in--not just in the 
Cabinet--as deputy ministers, as governors. And another 
measurable in terms of the implementation of this law that is 
in force, the Elimination of Violence Against Women Law, are we 
going to see more prosecutions of people who commit rapes and 
serious crimes against women? Are we going to see people 
prosecuted--the law actually criminalizes child marriage for 
the first time. Will we actually see that implemented? And will 
we also see a reduction on school attacks? Will, for instance, 
as you move into talks with the Taliban, will that be a 
condition, a confidence-building measure, that you insist that 
they cease all attacks on schools, cease assassination of 
people who are working for the government, cease attacks and 
threats against women before you move forward with these 
processes? Because at the moment, there's no clear sign really 
from their side that that they're actually interested in reform 
and change.
    Senator Casey. Well, I know we're over our time a little 
bit, but I do want to thank you for the time and the commitment 
that you've demonstrated on these issues for a long, long time. 
We're grateful for your presence here, your scholarship, and 
your commitment. And, please, keep reporting back to us, and 
one of the things you can do is hold us accountable as well.
    Thank you very much.
    Ms. Reid. Thank you. Should I request that my written 
testimony is submitted for the record?
    Senator Casey. Yes.
    Ms. Reid. Thank you.
    Senator Casey. For the record, the testimony of all the 
witnesses will be made a part of the record.
    Ms. Reid. Thank you.
    Senator Casey. Thank you very much. We're adjourned.


    [Whereupon, at 5:03 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
